APPENDIX

19

U.S. v. BLASZCZAK
Cite as 947 F.3d 19 (2nd Cir. 2019)

dinance preempted by Me. Rev. Stat. tit.
38, § 556 of Maine’s Coastal Conveyance
Act?
(3) Independent of Me. Rev. Stat. tit. 38,
§ 556, is there any basis for finding that
Maine’s Coastal Conveyance Act impliedly preempts the City of South Portland’s Clear Skies Ordinance?
We would welcome further guidance
from the Law Court on any other relevant
aspect of Maine law that it believes would
aid in the proper resolution of the issues
before us.
The Clerk of this Court is directed to
forward to the Maine Supreme Judicial
Court, under the official seal of this Court,
a copy of the certified questions, along
with the merits briefs and appendices filed
by the parties and the State of Maine as
amici, as well as the supplemental briefs
filed by the parties and the State of Maine
pursuant to this Court’s order dated September 23, 2019.

,

Southern District of New York, Lewis A.
Kaplan, Senior District Judge, of wire
fraud, securities fraud, conversion of U.S.
property, and conspiracy arising from misappropriation of confidential information
from Centers for Medicare and Medicaid
Services (CMS). Defendants appealed.
Holdings: The Court of Appeals, Sullivan,
Circuit Judge, held that:
(1) agency’s proprietary right to exclude
and well-recognized economic interests
were sufficient for its confidential information regarding contemplated regulatory action to be ‘‘property’’;
(2) defendant did not have to receive personal benefit to be convicted under federal criminal statute governing securities and wire fraud statute;
(3) interference with agency ownership of
confidential information regarding predecisional reimbursement rates was
complete upon unauthorized disclosure;
(4) interference with agency’s confidential
information regarding predecisional reimbursement rates was serious;
(5)

UNITED STATES of America,
Appellee,
v.
David BLASZCZAK, Theodore Huber,
Robert Olan, Christopher Worrall,
Defendants-Appellants.
Docket Nos. 18-2811
18-2825
18-2867
18-2878
August Term 2019
United States Court of Appeals,
Second Circuit.

CMS predecisional reimbursement
rates was ‘‘thing of value’’ under
criminal conversion statute;

(6) ‘‘conscious avoidance’’ instruction was
warranted; and
(7) joinder was permissible for
schemes of misappropriation
sider trading of confidential
ment information concerning
care rules.

distinct
and ingovernhealth-

Affirmed.
Kearse, Senior Circuit Judge, filed dissenting opinion.

Argued: November 21, 2019
Decided: December 30, 2019
Background: Defendants were convicted
in the United States District Court for the

1. Criminal Law O1139
The Court of Appeals reviews de novo
questions of statutory interpretation, chal-

Pet. App. 01

20

947 FEDERAL REPORTER, 3d SERIES

lenges to the district court’s jury instructions, and the propriety of joinder.
2. Criminal Law
1159.2(7)

O1139,

1144.13(3),

Sufficiency of the evidence is reviewed
de novo, recognizing that a defendant raising such a challenge bears a heavy burden
because a reviewing court must consider
the evidence in the light most favorable to
the prosecution and uphold the conviction
if any rational trier of fact could have
found the essential elements of the crime
beyond a reasonable doubt.
3. Criminal Law O1153.1
A district court’s evidentiary rulings
are reviewed for abuse of discretion.
4. Securities Regulation O193
Telecommunications O1014(7)
Agency’s proprietary right to exclude
and well-recognized economic interests
were sufficient for its confidential information regarding contemplated regulatory action to be ‘‘property’’ under federal wire
fraud and securities fraud statutes, even if
agency did not suffer actual monetary loss
from defendants’ misappropriation. 18
U.S.C.A. §§ 1343, 1348.
See publication Words and Phrases
for other judicial constructions and
definitions.

5. Criminal Law O1044.1(7)
Defendants’ motion for judgment of
acquittal on ground that evidence at trial
was insufficient to establish that agency’s
information was ‘‘property’’ in hands of
agency was sufficient to preserve argument for consideration on appeal that
confidential government information was
not ‘‘property’’ under federal wire fraud
and securities fraud statutes, although defendants did not object to district court’s
instruction that confidential government
information could be considered to be

property for purposes of securities fraud.
18 U.S.C.A. §§ 1343, 1348.
6. Criminal Law O1159.2(1)
A reviewing court’s limited determination on review of sufficiency of the evidence does not rest on how the jury was
instructed.
7. Securities Regulation O193
Telecommunications O1014(7)
Under the wire fraud and securities
fraud statutes, the word ‘‘property’’ is construed in accordance with its ordinary
meaning: ‘‘something of value’’ in the possession of the property holder.
See publication Words and Phrases
for other judicial constructions and
definitions.

8. Telecommunications O1014(7)
On a wire fraud claim where the fraud
victim is a government agency and the
claimed property is confidential information regarding contemplated regulatory action, monetary loss generally may be a
useful tool for distinguishing a government’s property interests from its ‘‘purely
regulatory’’ interests, but it is not required. 18 U.S.C.A. §§ 1343.
9. Telecommunications O1014(7)
Exclusivity is an important characteristic when determining what is ‘‘property’’
in the context of a wire fraud claim where
the fraud victim is a government agency
and the claimed property is confidential
information regarding contemplated regulatory action. 18 U.S.C.A. § 1343.
10. Securities Regulation O193
Telecommunications O1014(7)
General, confidential government information may constitute government
‘‘property’’ under the wire fraud and securities fraud statutes. 18 U.S.C.A. §§ 1343,
1348.

Pet. App. 02

21

U.S. v. BLASZCZAK
Cite as 947 F.3d 19 (2nd Cir. 2019)

11. Securities Regulation O193
An insider may not be convicted of
securities fraud unless the government
proves that he breached a duty of trust
and confidence by disclosing material, nonpublic information in exchange for a ‘‘personal benefit.’’ Securities Act of 1933,
§ 17(a), 15 U.S.C.A. § 77q(a); Securities
Exchange Act of 1934, § 10(b), 15 U.S.C.A.
§ 78j(b).
12. Securities Regulation O193
A tippee may not be convicted of federal securities fraud unless he utilized the
inside information knowing that it had
been obtained in breach of the insider’s
duty. Securities Act of 1933, § 17(a), 15
U.S.C.A. § 77q(a); Securities Exchange Act
of 1934, § 10(b), 15 U.S.C.A. § 78j(b).
13. Securities Regulation O193
Telecommunications O1014(8)
Defendant did not have to receive personal benefit to be convicted under federal
criminal statute governing securities and
wire fraud statute. 18 U.S.C.A. §§ 1343,
1348.
14. Securities Regulation O60.19, 193
Telecommunications O1014(8)
Under the federal wire fraud statute,
the general criminal statute for securities,
and the civil securities fraud statute, the
term ‘‘defraud’’ encompasses ‘‘embezzlement’’ or ‘‘misappropriation.’’ Securities
Exchange Act of 1934 § 10, 15 U.S.C.A.
§ 78j(b); 18 U.S.C.A. §§ 1343, 1348(1),
1348(2); 17 C.F.R. § 240.10b-5(a).
15. Securities Regulation O193
Telecommunications O1014(8)
Under the federal wire fraud statute
and the general criminal statute for securities, the act of ‘‘embezzlement’’ is the
fraudulent appropriation to one’s own use
of the money or goods entrusted to one’s

care by another.
1348(1), 1348(2).

18 U.S.C.A. §§ 1343,

See publication Words and Phrases
for other judicial constructions and
definitions.

16. Securities Regulation O193
Telecommunications O1014(8)
Under the federal wire fraud statute
and the general criminal statute for securities, the undisclosed misappropriation of
confidential information, in breach of a fiduciary or similar duty of trust and confidence, constitutes fraud akin to embezzlement. 18 U.S.C.A. §§ 1343, 1348(1),
1348(2).
17. Securities Regulation O193
The personal-benefit test, under which
an insider may not be convicted of securities fraud under the Securities Exchange
Act unless the government proves that he
breached a duty of trust and confidence by
disclosing material, nonpublic information
in exchange for a personal benefit, is a
judge-made doctrine premised on the Exchange Act’s statutory purpose. Securities Exchange Act of 1934 § 10, 15
U.S.C.A. § 78j(b).
18. Securities Regulation O193
Telecommunications O1014(8)
In the context of embezzlement in violation of the federal wire fraud statute or
the general criminal statute for securities,
there is no additional requirement that an
insider breach a duty to the owner of the
property, since it is impossible for a person
to embezzle the money of another without
committing a fraud upon him. 18 U.S.C.A.
§§ 1343, 1348.
19. Securities Regulation O60.28(5)
The personal-benefit test for insider
trading depends entirely on the purpose of
the Securities Exchange Act; it is not
grounded in the embezzlement theory of

Pet. App. 03

22

947 FEDERAL REPORTER, 3d SERIES

fraud. Securities Exchange Act of 1934
§ 10, 15 U.S.C.A. § 78j(b).
20. Securities Regulation O193
The criminal statute addressing securities fraud was intended to provide prosecutors with a different and broader enforcement mechanism to address securities
fraud than what previously had been provided in the civil securities fraud provisions. Securities Exchange Act of 1934
§ 10, 15 U.S.C.A. § 78j(b); 18 U.S.C.A.
§ 1348.
21. Larceny O18
Interference with Centers for Medicare and Medicaid Services (CMS) ownership of confidential information regarding
predecisional reimbursement rates was
complete upon unauthorized disclosure, allowing for defendants’ conviction for criminal conversion under federal law, even if
misappropriation did not ultimately affect
rules subsequently announced by CMS.
18 U.S.C.A. § 641.
22. Larceny O18
Although arguably a lesser quantum
of interference might be required under
the federal conversion statute, which was
intended to broaden the scope of the common-law crime, evidence sufficient to establish ‘‘serious interference’’ under the
common law, at a minimum, would be sufficient to establish the requisite interference required for conversion. 18 U.S.C.A.
§ 641.
23. Larceny O18
Federal criminal conversion extends
broadly to the misuse or abuse of government property. 18 U.S.C.A. § 641.
24. Larceny O18
Interference with Centers for Medicare and Medicaid Services (CMS) confidential information regarding predecisional reimbursement rates was serious,

allowing for defendants’ conviction for
conversion under federal criminal statute;
even though agency was able to keep using that information after unauthorized
disclosure, government had strong interest in maintaining confidentiality of that
information and adverse effects of disclosure caused agency to function less efficiently. 18 U.S.C.A. § 641.
25. Larceny O18
In defendants’ trial on charge of conversion, jury was free to consider ability of
Centers for Medicare and Medicaid Services (CMS) to use misappropriated information regarding predecisional reimbursement rates and that CMS did not suffer
any monetary loss, as well as strength of
government’s interest in maintaining confidentiality, risk of harm to government’s
interests posed by unauthorized disclosure,
and extent of unauthorized disclosure. 18
U.S.C.A. § 641.
26. Larceny O5
Centers for Medicare and Medicaid
Services (CMS) predecisional reimbursement rates was ‘‘thing of value’’ under
criminal conversion statute. 18 U.S.C.A.
§ 641.
See publication Words and Phrases
for other judicial constructions and
definitions.

27. Larceny O5
Confidential information can itself be
a ‘‘thing of value’’ under the criminal conversion statute. 18 U.S.C.A. § 641.
See publication Words and Phrases
for other judicial constructions and
definitions.

28. Constitutional Law O1132(49)
Larceny O2
Federal criminal statute prohibiting
conversion was not vague as applied to
defendants who were not employees of
Centers for Medicare and Medicaid Services (CMS) but knew that disclosure of

Pet. App. 04

U.S. v. BLASZCZAK
Cite as 947 F.3d 19 (2nd Cir. 2019)

confidential predecisional CMS information to them on reimbursement rates was
without authority, even if their conduct
was not prohibited by published rule or
regulation. 18 U.S.C.A. § 641; 5 C.F.R.
§ 2635.703(a).
29. Larceny O12
Although the phrase ‘‘without authority’’ in the criminal conversion statute modifies only the words that follow it, ‘‘sells,
conveys, or disposes,’’ not the words preceding it, ‘‘embezzles, steals, purloins, or
knowingly converts,’’ the ‘‘without authority’’ requirement is implied by the definition of conversion. 18 U.S.C.A. § 641.
30. Constitutional Law O975
Where a court is not dealing with
defendants’ exercise of a First Amendment
freedom, the court should not search for
statutory vagueness that did not exist for
the defendants themselves. U.S. Const.
Amend. 1.
31. Constitutional Law O1130
The existence of a published regulation proscribing disclosure is not the exclusive method of preventing vagueness.
32. Larceny O57
Evidence at trial was sufficient to establish defendants’ knowledge that their
receipt of Centers for Medicare and
Medicaid Services (CMS) confidential information regarding predecisional reimbursement rates was serious interference,
allowing for defendants’ conviction for
conversion under federal criminal statute,
where co-conspirator discussed impact on
CMS process in detail with defendants.
18 U.S.C.A. § 641.
33. Larceny O57
Requisite intent for conversion was
established by evidence that defendant,
who was former Centers for Medicare and
Medicaid Services (CMS) employee, obvi-

23

ously knew that disclosure of predecisional
CMS information on reimbursement rates
he received was unauthorized and could
spawn interference with CMS’s processes,
but he nevertheless intentionally proceeded to appropriate such information to his
own use by disclosing it to his hedge fund
clients. 18 U.S.C.A. § 641; 5 C.F.R.
§ 2635.703(a).
34. Conspiracy O48.2(2)
Criminal Law O772(5)
Larceny O71(1)
Securities Regulation O194
Telecommunications O1021
Rational juror could have found that,
even if defendants did not have actual
knowledge that predictions of former Centers for Medicare and Medicaid Services
(CMS) employee were based on confidential CMS information that had been converted, they at least were aware of high
probability of that fact and yet consciously
avoided confirming it, and therefore ‘‘conscious avoidance’’ instruction was warranted in defendant’s trial on charges of wire
fraud, securities fraud, conversion of U.S.
property, and conspiracy arising from misappropriation of confidential information
from CMS, where evidence at trial established that defendants sought out services
of former CMS employee precisely so they
could trade on information that other analysts and consultants did not possess and
they specifically discussed fact that disclosure of CMS confidential predecisional information could harm agency’s regulatory
process. 18 U.S.C.A. §§ 641, 1343, 1348; 5
C.F.R. § 2635.703(a).
35. Criminal Law O772(5)
A conscious avoidance instruction may
be given only if the appropriate factual
predicate for the charge exists, i.e. the
evidence is such that a rational juror may
reach the conclusion beyond a reasonable
doubt that the defendant was aware of a

Pet. App. 05

24

947 FEDERAL REPORTER, 3d SERIES

high probability of the fact in dispute and
consciously avoided confirming that fact.

39. Indictments and Charging Instruments O715

36. Conspiracy O47(6)

Joint proceedings must produce sufficient efficiencies, in light of the factual
overlap among charges, such that joinder
is proper notwithstanding the possibility of
prejudice to either or both of the defendants resulting from the joinder. Fed. R.
Crim. P. 8(b).

Larceny O57
Securities Regulation O199
Telecommunications O1018(4)
Government was entitled to prove defendant’s knowledge of predecisional information concerning proposed radiation
oncology rule through circumstantial evidence, including evidence that he had access to information because he worked
closely with Centers for Medicare and
Medicaid Services (CMS) director and his
job responsibilities exposed him to various
matters within agency, rather than prove
precise way in which he became aware of
that information, in defendant’s trial on
charges of wire fraud, securities fraud,
conversion of U.S. property, and conspiracy arising from misappropriation of confidential information from CMS.
18
U.S.C.A. §§ 641, 1343, 1348; 5 C.F.R.
§ 2635.703(a).
37. Indictments and Charging Instruments O777
Joinder was permissible for distinct
schemes of misappropriation and insider
trading of confidential government information concerning healthcare rules, where
there was substantial temporal overlap between those schemes, schemes involved
nearly identical conduct, and Centers for
Medicare and Medicaid Services (CMS)
was victim and source of information was
key player in both schemes. 18 U.S.C.A.
§§ 641, 1343, 1348; Fed. R. Crim. P. 8(b).
38. Indictments and Charging Instruments O715, 716
Joinder of defendants is proper when
the alleged acts are unified by some substantial identity of facts or participants, or
arise out of a common plan or scheme.
Fed. R. Crim. P. 8(b).

40. Criminal Law O1166(6)
Even where joinder is erroneous, the
Court of Appeals will not reverse unless
the misjoinder results in actual prejudice
because it had a substantial and injurious
effect or influence in determining the
jury’s verdict. Fed. R. Crim. P. 8(b).
41. Criminal Law O1166(6)
Any error was harmless in joinder of
distinct schemes of misappropriation and
insider trading of confidential government
information concerning healthcare rules,
where probative value of attenuated witness testimony regarding other scheme
would not have resulted in any undue prejudice. 18 U.S.C.A. §§ 641, 1343, 1348;
Fed. R. Crim. P. 8(b).
42. Criminal Law O675
District court acted within its discretion in limiting testimony as to basis for
Centers for Medicare and Medicaid Services (CMS) proposed radiation oncology
rule, in defendant’s trial on charges of wire
fraud, securities fraud, conversion of U.S.
property, and conspiracy arising from misappropriation of confidential information
from CMS, since other evidence had been
introduced on that subject and further testimony would have been cumulative. 18
U.S.C.A. §§ 641, 1343, 1348.
43. Witnesses O387
District court acted within its discretion in precluding cross-examination of
witness as to prior inconsistent statement

Pet. App. 06

U.S. v. BLASZCZAK
Cite as 947 F.3d 19 (2nd Cir. 2019)

that market’s prediction for the home
healthcare cuts was 2.5% rather than 3.5%
as he recalled at trial, in defendant’s trial
on charges of wire fraud, securities fraud,
conversion of U.S. property, and conspiracy arising from misappropriation of confidential information from Centers for Medicare and Medicaid Services (CMS), since
witness recollection as to actual market
consensus was collateral issue.
18
U.S.C.A. §§ 641, 1343, 1348.
44. Criminal Law O422(1)
District court acted within its discretion in admitting into evidence statements
made in e-mails by pharmaceutical company employee under unindicted co-conspirator hearsay exclusion, in defendant’s trial
on charges of wire fraud, securities fraud,
conversion of U.S. property, and conspiracy arising from misappropriation of confidential information from Centers for Medicare and Medicaid Services (CMS), where
employee had implied agreement with
source to misappropriate confidential CMS
information. 18 U.S.C.A. §§ 641, 1343,
1348; Fed. R. Evid. 801(d)(2)(E).
45. Criminal Law O436(3), 673(4)
District court acted within its discretion in admitting minutes of corporate
meeting into evidence as business record
for purpose of proving defendants’ states
of mind during years of charged conspiracy, subject to clear limiting instruction that
such evidence could not be considered
against alleged source of confidential information, in defendant’s trial on charges of
wire fraud, securities fraud, conversion of
U.S. property, and conspiracy arising from
misappropriation of confidential information from Centers for Medicare and Medicaid Services (CMS), where defendants
were principals of that corporation and
minutes reflected that someone at meeting
had opined that ‘‘comments pre-news suggest [source] had a read of draft docu-

25

ments.’’ 18 U.S.C.A. §§ 641, 1343, 1348;
Fed. R. Evid. 803(6).
United States District Court for the
Southern District of New York (Kaplan,
Judge)
SARAH K. EDDY, Assistant United
States Attorney (Ian McGinley, Joshua A.
Naftalis, Won S. Shin, Assistant United
States Attorneys, on the brief), for Geoffrey S. Berman, United States Attorney
for the Southern District of New York,
New York, NY, for Appellee United States
of America.
DONALD B. VERILLI, JR. (Elaine J.
Goldenberg, Jonathan S. Meltzer, on the
brief), Munger, Tolles & Olson LLP,
Washington, D.C., David Esseks, Eugene
Ingoglia, Rachel Agress, Alexander Bussey, on the brief, Allen & Overy LLP, New
York, NY, for Appellant Robert Olan.
ALEXANDRA A.E. SHAPIRO (Eric S.
Onley, on the brief), Shapiro Arato Bach
LLP, New York, NY, Dani R. James, on
the brief, Kramer Levin Naftalis & Frankel, LLP, New York, NY, for Appellant
Theodore Huber.
COLLEEN P. CASSIDY, Federal Defenders of New York, Inc., New York, NY,
for Appellant David Blaszczak.
DANIEL M. SULLIVAN (James M.
McGuire, on the brief), Holwell Shuster &
Goldberg LLP, New York, NY, Stephen
Fishbein, John A. Nathanson, on the brief,
Shearman & Sterling LLP, New York,
NY, for Appellant Christopher Worrall.
Peter Neiman, Wilmer Cutler Pickering
Hale and Dore LLP, New York, NY, Lindsay A. Lewis, Joshua L. Dratel, P.C., New
York, NY, for Amicus Curiae National Association of Criminal Defense Lawyers.
Kendall Turner, O’Melveny & Myers
LLP, Washington, D.C., Anton Metlitsky,
O’Melveny & Myers, LLP, New York, NY,

Pet. App. 07

26

947 FEDERAL REPORTER, 3d SERIES

for Amici Curiae Law Professors Adam C.
Pritchard, Matthew C. Turk, Andrew N.
Vollmer, Karen Woody.
Before: KEARSE, DRONEY, and
SULLIVAN, Circuit Judges.
RICHARD J. SULLIVAN, Circuit
Judge:
These consolidated appeals require us to
consider whether the federal wire fraud,
securities fraud, and conversion statutes,
codified at 18 U.S.C. §§ 1343, 1348, and
641, respectively, reach misappropriation
of a government agency’s confidential nonpublic information relating to its contemplated rules. Defendants David Blaszczak,
Theodore Huber, Robert Olan, and Christopher Worrall were charged with violating these statutes – and with engaging in
securities fraud in violation of Section
10(b) of the Securities and Exchange Act,
15 U.S.C. § 78j(b), and SEC Rule 10b-5
(‘‘Title 15 securities fraud’’) – by misappropriating confidential nonpublic information from the Centers for Medicare &
Medicaid Services (‘‘CMS’’). The indictment principally alleged that CMS employees, including Worrall, disclosed the
agency’s confidential information to
Blaszczak, a ‘‘political intelligence’’ consultant for hedge funds, who in turn tipped
the information to Huber and Olan, employees of the healthcare-focused hedge
fund Deerfield Management Company,
L.P. (‘‘Deerfield’’), which traded on it. After a one-month trial before the United
States District Court for the Southern
District of New York (Kaplan, J.), a jury
found Defendants guilty of wire fraud,
conversion, and, with the exception of
Worrall, Title 18 securities fraud and conspiracy. The jury acquitted Defendants on
all counts alleging Title 15 securities
fraud.
Defendants now challenge their convictions on various grounds. For the reasons
set forth below, we reject these challenges.

In doing so, we hold, inter alia, that (1)
confidential government information such
as the CMS information at issue here may
constitute ‘‘property’’ in the hands of the
government for purposes of the wire fraud
and Title 18 securities fraud statutes, and
(2) the ‘‘personal-benefit’’ test established
in Dirks v. SEC, 463 U.S. 646, 103 S.Ct.
3255, 77 L.Ed.2d 911 (1983), does not apply to these Title 18 fraud statutes. Because we also discern no prejudicial error
with respect to the remaining issues raised
on appeal, we affirm the judgments of the
district court.
I. BACKGROUND
A. Facts
The jury returned guilty verdicts on
counts charging two insider-trading
schemes: (1) a scheme relating to Deerfield
that involved all defendants to varying degrees, and (2) a scheme relating to another
hedge fund investment manager, Visium
Asset Management, L.P. (‘‘Visium’’), that
involved Blaszczak only. We recite the
facts pertaining to each of these schemes
in turn, construing the evidence at trial
underlying the counts of conviction in the
light most favorable to the prosecution.
See United States v. Kirk Tang Yuk, 885
F.3d 57, 65 (2d Cir. 2018).
1. The Deerfield Scheme
At various times between 2009 and 2014,
Olan, Huber, and fellow Deerfield partner
Jordan Fogel – a cooperating witness who
pleaded guilty and testified at trial – approached Blaszczak for the purpose of obtaining so-called ‘‘predecisional’’ information concerning CMS’s contemplated rules
and regulations. The three Deerfield partners knew that Blaszczak, who had worked
at CMS before becoming a consultant for
hedge funds, enjoyed unique access to the
agency’s predecisional information through

Pet. App. 08

U.S. v. BLASZCZAK
Cite as 947 F.3d 19 (2nd Cir. 2019)

his inside sources at the agency. Because
other consultants did not have access to
Blaszczak’s sources, the Deerfield partners
counted him as a particularly lucrative
fount of illegal market ‘‘edge.’’ App’x at
567, 606.
This illegal market edge first paid off for
the three Deerfield partners in July 2009,
after Blaszczak passed them nonpublic
CMS information concerning both the timing and substance of an upcoming proposed CMS rule change that would reduce
the reimbursement rate for certain radiation oncology treatments. The Deerfield
partners sought to maximize this market
edge by trading while ‘‘the information
wasn’t known to others, and TTT wasn’t
public.’’ Id. at 593. In late June 2009, Olan,
Huber, and Fogel directed Deerfield to
enter orders shorting approximately $33
million worth of stock in radiation-device
manufacturer Varian Medical Systems
(‘‘Varian’’), a company that would be hurt
by CMS’s proposed rule. Blaszczak’s information was consistent with the proposed
rule that CMS ultimately announced on
July 1, 2009, and as a result of the Varian
trade, Deerfield made $2.76 million in profits.
Deerfield again traded on confidential
CMS information obtained from Blaszczak
in 2012. This time, Blaszczak obtained the
predecisional information at issue from
Worrall, a CMS employee who had previously worked with Blaszczak at the agency
and remained friends with him after
Blaszczak left CMS to become a hedge
fund consultant. Blaszczak met Worrall at
CMS’s headquarters in Maryland on May
8, 2012; the following day, Blaszczak
emailed Fogel to set up a phone call so
that he could update him on one of Fogel’s
‘‘favorite topics.’’ Id. at 2439. On the call,
Blaszczak provided Fogel with predecisional CMS information about additional
radiation oncology reimbursement rate

27

changes. Fogel, in turn, shared this information with Huber and Olan, and together
the three of them relied on it – in combination with other confidential CMS information that Blaszczak passed them over the
next few weeks – in recommending that
Deerfield short millions of dollars in the
shares of companies that would be hurt by
the reimbursement changes. Deerfield
earned profits of $2.73 million from trades
relating to this radiation oncology rule,
which was publicly announced on July 6,
2012.
In February 2013, shortly after Fogel
moved to a different group within Deerfield, he reached out to Blaszczak in the
hopes of ‘‘re-ignit[ing] the Blaszczak-Fogel
money printing machine.’’ Supp. App’x at
6. As Fogel testified at trial, the ‘‘Blaszczak-Fogel money printing machine’’ meant
that ‘‘Blaszczak had a long history of providing [Fogel] and [his] teammates nonpublic information that [they] could trade
on, and it was a great asset to get edge for
investments.’’ App’x at 581.
Fogel did not have to wait long for the
machine to reignite. In June 2013, Blaszczak told Fogel that he expected CMS to
propose cutting the reimbursement rate
for end-stage renal disease (‘‘ESRD’’)
treatments by 12 percent. Although
Blaszczak did not reveal the source of his
information to Fogel, the prediction was so
specific – and so different from the market
consensus – that Fogel believed it came
‘‘from a credible source inside of CMS.’’ Id.
at 582. Still, Fogel remained anxious about
the outlier status of Blaszczak’s prediction
and continued to check in with him about
his level of certainty. On June 25, 2013,
less than a week before CMS announced
the ESRD rule, Blaszczak told Fogel that
there was ‘‘[n]o change in [his] numbers’’
and that he was ‘‘pretty confident’’ in his
information. Id. at 2024. Fogel again took
this to mean that Blaszczak obtained the

Pet. App. 09

28

947 FEDERAL REPORTER, 3d SERIES

information from a reliable inside source,
and further inferred that the public announcement of the proposed rate cut (the
timing of which was also nonpublic) was
around the corner and thus less likely to
change. On the basis of this confidential
nonpublic information, Fogel directed
Deerfield to enter orders shorting stock in
Fresenius Medical Care, a public company
that would be hurt by the reimbursement
rate cuts. CMS publicly announced the 12
percent rate cut on July 1, 2013, and Deerfield earned approximately $860,000 in
profits from the trade.
Blaszczak continued to provide Fogel
with predecisional CMS information in advance of CMS’s announcement of the final
ESRD rule on November 22, 2013. In particular, Blaszczak informed Fogel that the
final ESRD rule would keep the 12 percent
rate cut but would be phased in over three
to four years. Based on that information,
Fogel recommended that Deerfield enter
orders to short stock in Fresenius and
DaVita Healthcare Partners Inc. Deerfield
did so, earning profits of approximately
$791,000. Immediately after CMS announced the final ESRD rule, Fogel
emailed his colleagues at Deerfield to
praise Blaszczak for his ESRD reimbursement predictions: ‘‘I told u guys blazcack
[sic] is the man. TTT [H]e has crushed it on
these two rules both times round.’’ Supp.
App’x at 10.
2. The Visium Scheme
Around the same time that Blaszczak
was tipping confidential CMS information
to his contacts at Deerfield, he also provided similar information to Christopher Plaford, a portfolio manager at the hedge
fund Visium. After subsequently pleading
guilty pursuant to a cooperation agreement, Plaford testified that he used
Blaszczak as a political-intelligence consultant from around 2010 to 2013, during

which time Blaszczak would provide him
with both public and nonpublic information
concerning the healthcare industry. Plaford, like the Deerfield partners, especially
valued Blaszczak’s nonpublic CMS information due to the market edge it gave him.
Indeed, Plaford considered Blaszczak’s
CMS information to be ‘‘much more accurate’’ than the information provided by
other consultants, since it came ‘‘directly
from the horse’s mouth,’’ meaning Blaszczak’s friends and former colleagues at
CMS. App’x at 750–51.
In May 2013, for example, Blaszczak
tipped Plaford that he expected CMS to
propose cutting the reimbursement rate
for home healthcare coverage by between
three and three-and-a-half percent per
year between 2014 and 2017. In the ensuing weeks, Plaford arranged phone calls
with Blaszczak to discuss the sources of
his information and thus his level of certainty, an issue that Plaford did not want
to discuss over email ‘‘because it was potentially incriminating.’’ Id. at 752. On the
phone call, Blaszczak told Plaford that he
had a ‘‘high conviction’’ that his information was accurate because he was ‘‘interacting directly with his counterparties in
CMS [who] were working on the rule, and
they were telling him TTT [what] the cut
would be.’’ Id. Based on Blaszczak’s information, Plaford directed Visium to maintain its short positions for Amedisys Inc.
and Gentiva Health Services Inc., and to
buy put-options in those companies. Following CMS’s June 27, 2013 announcement
of the proposed home healthcare rule,
which included a three-and-a-half percent
annual rate cut consistent with Blaszczak’s
information, Visium earned approximately
$330,000 in trading profits.
B. Procedural History
On March 5, 2018, the government filed
an eighteen-count superseding indictment

Pet. App. 10

U.S. v. BLASZCZAK
Cite as 947 F.3d 19 (2nd Cir. 2019)

in the United States District Court for the
Southern District of New York setting
forth allegations relating to the Deerfield
scheme (Counts One through Sixteen) and
Visium scheme (Counts Seventeen and
Eighteen). Counts One and Two charged
Defendants with participating in conspiracies centering on the misappropriation of
confidential CMS information between
2009 and 2014. In Counts Three through
Ten, the indictment charged Defendants
with conversion of U.S. property (Count
Three), Title 15 securities fraud (Counts
Four through Eight), wire fraud (Count
Nine), and Title 18 securities fraud (Count
Ten), relating to the misappropriation of
confidential CMS information that pertained to the July 2012 proposed radiation
oncology rule. Counts Eleven and Twelve
charged Blaszczak and Worrall with conversion of U.S. property (Count Eleven)
and wire fraud (Count Twelve) for allegedly misappropriating confidential CMS information relating to a company called
NxStage Medical Inc. The remaining four
Deerfield-related counts charged Blaszczak and Worrall with conversion of U.S.
property (Count Thirteen), Title 15 securities fraud (Count Fourteen), wire fraud
(Count Fifteen), and Title 18 securities
fraud (Count Sixteen), based on the misappropriation of confidential CMS information concerning the 2013 proposed and final ESRD rules. Counts Seventeen and
Eighteen charged Blaszczak alone with
conspiracy and conversion of U.S. property, respectively, for providing confidential
CMS information to Plaford as part of the
Visium scheme.
On April 2, 2018, the case proceeded to a
jury trial before Judge Kaplan. The parties rested their cases three weeks later,
on April 23, 2018, and after summations,
the district court charged the jury.
In particular, the district court instructed the jury pursuant to Dirks that, (1) in

29

order to convict Worrall of Title 15 securities fraud, it needed to find that he tipped
confidential CMS information in exchange
for a ‘‘personal benefit;’’ (2) in order to
convict Blaszczak of Title 15 securities
fraud, it additionally needed to find that he
knew that Worrall disclosed the information in exchange for a personal benefit;
and (3) in order to convict Huber or Olan
of Title 15 securities fraud, it needed to
find that Huber or Olan knew that a CMS
insider tipped the information in exchange
for a personal benefit. App’x at 1042–43.
The district court, however, refused to give
Dirks-style instructions on the wire fraud
and Title 18 securities fraud counts. The
district court instead instructed the jury
that wire fraud ‘‘includes the act of embezzlement, which is TTT the fraudulent appropriation to one’s own use of the money
or property entrusted to one’s care by
someone else.’’ Id. at 1044–45; see Carpenter v. United States, 484 U.S. 19, 27, 108
S.Ct. 316, 98 L.Ed.2d 275 (1987). The district court similarly instructed the jury, for
the Title 18 securities fraud counts, that it
could find the existence of a scheme to
defraud if a defendant ‘‘participated in a
scheme to embezzle or convert confidential
information from CMS by wrongfully taking that information and transferring it to
his own use or the use of someone else.’’
App’x at 1045. For both Title 18 fraud
offenses, the district court further instructed the jury that it could only convict if it
found that the defendant it was considering knowingly and willfully participated in
the fraudulent scheme.
On May 3, 2018, after four days of deliberations, the jury returned a split verdict.
The jury acquitted all defendants on the
Title 15 securities fraud counts; Blaszczak
and Worrall on the offenses charged in
Counts Eleven and Twelve relating to the
NxStage information; and Worrall on the
conspiracies charged in Counts One and
Two and the substantive offenses charged

Pet. App. 11

30

947 FEDERAL REPORTER, 3d SERIES

in Counts Thirteen through Sixteen. The
jury nevertheless found all defendants
guilty of the conversion and wire fraud
offenses charged in Counts Three and
Nine, respectively; all defendants but Worrall guilty of the conspiracy offenses
charged in Counts One and Two as well as
Title 18 securities fraud as charged in
Count Ten; and Blaszczak alone guilty of
the offenses charged in Counts Thirteen
and Fifteen through Eighteen.
On September 13, 2018, the district
court denied from the bench Defendants’
post-trial motions for a new trial and/or
judgment of acquittal and proceeded to
sentencing. The district court sentenced
Blaszczak to twelve months and one day of
imprisonment, Worrall to twenty months’
imprisonment, and Huber and Olan each to
thirty-six months’ imprisonment and fines
of $1,250,000. The district court also ordered Blaszczak to forfeit $727,500, Huber
to forfeit $87,078, and Olan to forfeit
$98,244, and ordered joint and several restitution in the amount of $1,644.26 against
all defendants to cover the costs that CMS
expended on witnesses’ travel in connection with the criminal investigation and
trial. Finally, the district court granted all
defendants bail pending appeal on the
ground that the forthcoming appeal would
present novel and substantial questions.
See United States v. Randell, 761 F.2d
122, 125 (2d Cir. 1985). Defendants timely
appealed.
II. JURISDICTION

AND

STANDARD

OF

REVIEW

[1–3] We have jurisdiction pursuant to
28 U.S.C. § 1291. We review de novo questions of statutory interpretation, challenges to the district court’s jury instructions, and the propriety of joinder. See
United States v. Gayle, 342 F.3d 89, 91 (2d
Cir. 2003); United States v. Sabhnani, 599
F.3d 215, 237 (2d Cir. 2010); United States
v. Shellef, 507 F.3d 82, 96 (2d Cir. 2007).

We also review de novo the sufficiency of
the evidence, Sabhnani, 599 F.3d at 241,
recognizing, of course, that a defendant
raising such a challenge ‘‘bears a heavy
burden because a reviewing court must
consider the evidence ‘in the light most
favorable to the prosecution’ and uphold
the conviction if ‘any rational trier of fact
could have found the essential elements of
the crime beyond a reasonable doubt,’ ’’
United States v. Aguilar, 585 F.3d 652, 656
(2d Cir. 2009) (quoting Jackson v. Virginia, 443 U.S. 307, 319, 99 S.Ct. 2781, 61
L.Ed.2d 560 (1979)); accord United States
v. Harvey, 746 F.3d 87, 89 (2d Cir. 2014).
The district court’s evidentiary rulings are
reviewed for abuse of discretion. See United States v. Nektalov, 461 F.3d 309, 318
(2d Cir. 2006).
III. DISCUSSION
Defendants challenge their convictions
on several grounds. They argue that (1)
the confidential CMS information at issue
is not ‘‘property’’ in the hands of CMS for
purposes of the wire fraud and Title 18
securities fraud statutes; (2) the district
court erred by refusing to instruct the jury
on the Dirks personal-benefit test as to the
Title 18 fraud counts; (3) Defendants’ convictions for converting U.S. property were
infected by a series of legal and factual
errors; (4) the evidence at trial was insufficient on all counts; (5) Counts Seventeen
and Eighteen, charging Blaszczak alone in
the Visium scheme, were misjoined with
the other counts; and (6) the district court
made a variety of evidentiary errors. We
address each of these arguments in turn.
A. ‘‘Property’’ under 18 U.S.C.
§§ 1343, 1348
[4] Defendants argue that their convictions for fraud under Title 18 must be
reversed because there was insufficient evidence to prove that they engaged in a

Pet. App. 12

U.S. v. BLASZCZAK
Cite as 947 F.3d 19 (2nd Cir. 2019)

scheme to defraud CMS of ‘‘property.’’ 18
U.S.C. §§ 1343, 1348.1 The gravamen of
their argument is that a government agency’s confidential information is not ‘‘property’’ in the hands of the agency under the
Supreme Court’s decision in Cleveland v.
United States, 531 U.S. 12, 121 S.Ct. 365,
148 L.Ed.2d 221 (2000), because the agency has a ‘‘purely regulatory’’ interest in
such information, id. at 22, 121 S.Ct. 365.
[5, 6] As a preliminary matter, the government contends that Defendants failed
to preserve the argument that confidential
government information is not ‘‘property,’’
since Defendants did not object to the
district court’s instruction that ‘‘confidential government information may be considered to be property’’ for purposes of
Title 18 securities fraud. App’x at 1045; see
also id. (instructing the jury, for purposes
of the wire fraud counts, that the government was required to prove that a defendant intended to deprive CMS of ‘‘something of value – for example, confidential
material, non-public information’’). But
while Defendants did not challenge the
pertinent jury instructions in the district
court (and have not done so on appeal),
Defendants filed a Rule 29(a) motion for a
judgment of acquittal on the ground that
the evidence at trial was insufficient to
establish that CMS’s information was
‘‘property’’ in the hands of the agency.
Contrary to the government’s argument,
we do not construe Defendants’ Rule 29(a)
motion in the district court as raising a
claim distinct from their sufficiency claim
on appeal; at both stages, Defendants ex1.

The superseding indictment charged Defendants with violating both subsections (1) and
(2) of 18 U.S.C. § 1348, either of which may
independently support a conviction. See United States v. Mahaffy, 693 F.3d 113, 125 (2d
Cir. 2012). While subsection (2) proscribes a
‘‘scheme or artifice TTT to obtain, by means of
false or fraudulent pretenses, TTT any money
or property in connection with the purchase
or sale of’’ securities, subsection (1) does not

31

pressly tied their sufficiency claim to the
Supreme Court’s decision in Cleveland,
thus raising the broader threshold question of whether a government agency’s
confidential regulatory information may
constitute ‘‘property’’ in the hands of the
agency as a general matter. In answering
this question, we are not bound by the
district court’s jury instruction that ‘‘confidential government information may be
considered to be property,’’ id., since ‘‘[a]
reviewing court’s limited determination on
sufficiency review TTT does not rest on
how the jury was instructed,’’ Musacchio
v. United States, ––– U.S. ––––, 136 S. Ct.
709, 715, 193 L.Ed.2d 639 (2016).
[7] Proceeding to the merits, we afford
the same meaning to the word ‘‘property’’
in both the wire fraud and Title 18 securities fraud statutes. See S. Rep. No. 107146, at 20 (2002) (Title 18 securities fraud
statute created to be comparable to Title
18 bank and healthcare fraud statutes);
Neder v. United States, 527 U.S. 1, 20, 119
S.Ct. 1827, 144 L.Ed.2d 35 (1999) (Title 18
mail, wire, and bank fraud statutes should
be analyzed similarly). We may also look to
cases interpreting the same word in the
mail fraud statute. See, e.g., Pasquantino
v. United States, 544 U.S. 349, 355 n.2, 125
S.Ct. 1766, 161 L.Ed.2d 619 (2005). Under
each of these fraud statutes, the word
‘‘property’’ is construed in accordance with
its ordinary meaning: ‘‘something of value’’
in the possession of the property holder (in
this context, the fraud victim). Pasquantino, 544 U.S. at 355, 125 S.Ct. 1766 (quoting
use the term ‘‘property,’’ proscribing instead
a ‘‘scheme or artifice TTT to defraud any person in connection with’’ securities. 18 U.S.C.
§ 1348. Nevertheless, the government does
not argue that the object of a ‘‘scheme to
defraud’’ in subsection (1) can be anything
other than ‘‘property,’’ and thus we assume,
for purposes of this case, that the ‘‘property’’
requirement in subsection (2) also applies in
subsection (1).

Pet. App. 13

32

947 FEDERAL REPORTER, 3d SERIES

McNally v. United States, 483 U.S. 350,
358, 107 S.Ct. 2875, 97 L.Ed.2d 292 (1987),
superseded by statute on other grounds as
stated in Skilling v. United States, 561
U.S. 358, 130 S.Ct. 2896, 177 L.Ed.2d 619
(2010)); see also id. at 356, 125 S.Ct. 1766
(citing Black’s Law Dictionary 1382 (4th
ed. 1951) (defining ‘‘property’’ as ‘‘extend[ing] to every species of valuable right
and interest’’)). In applying this general
notion of property to the facts of this case,
in which the fraud victim is a government
agency and the claimed property is confidential information regarding contemplated regulatory action, we are guided by two
precedents in particular: Carpenter and
Cleveland.
In Carpenter, the Supreme Court held
that the publication schedule and contents
of forthcoming articles in a Wall Street
Journal column were the Journal’s ‘‘property’’ because ‘‘[t]he Journal had a property right in keeping confidential and
making exclusive use’’ of the information
before publication. 484 U.S. at 26, 108
S.Ct. 316. In fact, the Court noted that
‘‘[c]onfidential business information ha[d]
long been recognized as property.’’ Id.
The Court further noted that pre-publication information was ‘‘stock in trade, to be
gathered at the cost of enterprise, organization, skill, labor, and money, and to be
distributed and sold to those who [would]
pay money for it.’’ Id. (quoting Int’l News
Serv. v. Associated Press, 248 U.S. 215,
236, 39 S.Ct. 68, 63 L.Ed. 211 (1918)). The
Court therefore concluded that a Journal
employee fraudulently misappropriated
his employer’s ‘‘property’’ in violation of
the mail and wire fraud statutes when he
knowingly disclosed the Journal’s confidential pre-publication information to a
stockbroker who traded on it. Id. at 28,
108 S.Ct. 316.
By contrast, thirteen years later, the
Court in Cleveland held that the mail

fraud statute did ‘‘not reach fraud in obtaining a state or municipal license’’ to
operate video poker machines, holding that
‘‘such a license [was] not ‘property’ in the
government regulator’s hands.’’ 531 U.S. at
20, 121 S.Ct. 365. The Court reasoned that
(1) the licenses themselves had no economic value until they were issued to a private
actor, and (2) the state’s right to control
the issuance of its licenses ‘‘implicated [its]
role as sovereign, not as property holder.’’
Id. at 22–24, 121 S.Ct. 365. Thus, the Court
concluded that the government’s ‘‘theories
of property rights TTT [both] stray[ed]
from traditional concepts of property’’ and
invited a ‘‘sweeping expansion of federal
criminal jurisdiction in the absence of a
clear statement by Congress.’’ Id. at 24,
121 S.Ct. 365.
While Cleveland remains good law,
courts have consistently rejected attempts – similar to those advanced by
Defendants here – to apply its holding
expansively. See, e.g., Pasquantino, 544
U.S. at 357, 125 S.Ct. 1766 (‘‘Cleveland is
different from this case.’’); Fountain v.
United States, 357 F.3d 250, 256 (2d Cir.
2004) (explaining that Cleveland had only a
‘‘modest’’ effect on the existing legal landscape); United States v. Middendorf, No.
18-cr-36 (JPO), 2018 WL 3443117, at *8–9
(S.D.N.Y. July 17, 2018) (rejecting a Cleveland-based argument similar to the one
raised here). As the Supreme Court has
clarified, Cleveland simply ‘‘held that a
[s]tate’s interest in an unissued video poker license was not ‘property,’ because the
interest in choosing particular licensees
was ‘purely regulatory’ and ‘could not be
economic.’ ’’ Pasquantino, 544 U.S. at 357,
125 S.Ct. 1766 (emphasis added) (brackets
omitted) (quoting Cleveland, 531 U.S. at
22–23, 121 S.Ct. 365). Consistent with this
formulation, we have observed that Cleveland’s ‘‘particular selection of factors’’ did
not establish ‘‘rigid criteria for defining
property but instead TTT provid[ed] per-

Pet. App. 14

U.S. v. BLASZCZAK
Cite as 947 F.3d 19 (2nd Cir. 2019)

missible considerations.’’ Fountain, 357
F.3d at 256. The considerations relied upon
by the Court in Cleveland are thus in
addition to considerations recognized in
other cases, such as the ‘‘right to exclude’’
that was ‘‘deemed crucial in defining property’’ in Carpenter. Id.
Here, we find it most significant that
CMS possesses a ‘‘right to exclude’’ that is
comparable to the proprietary right recognized in Carpenter. Like the private news
company in Carpenter, CMS has a ‘‘property right in keeping confidential and making exclusive use’’ of its nonpublic predecisional information. Carpenter, 484 U.S. at
26, 108 S.Ct. 316. In stark contrast to a
state’s right to issue or deny a poker license – a ‘‘paradigmatic exercise[ ] of the
[state’s] traditional police powers’’ – CMS’s
right to exclude the public from accessing
its confidential predecisional information
squarely implicates the government’s role
as property holder, not as sovereign.
Cleveland, 531 U.S. at 23, 121 S.Ct. 365.
This view is consistent with pre-Cleveland
decisions from this and other Circuits. See
United States v. Girard, 601 F.2d 69, 71
(2d Cir. 1979) (concluding that ‘‘the [g]overnment has a property interest in certain
of its private records,’’ including the confidential information contained in those records); United States v. Czubinski, 106 F.3d
1069, 1074 (1st Cir. 1997) (holding that the
IRS’s confidential taxpayer information
‘‘may constitute intangible ‘property’ ’’ under the wire fraud statute (citing Carpenter, 484 U.S. at 26, 108 S.Ct. 316)).
Furthermore, although we do not read
Cleveland as strictly requiring the government’s property interest to be ‘‘economic’’
in nature, the government presented evidence that CMS does have an economic
interest in its confidential predecisional information. For example, the evidence at
trial established that CMS invests time
and resources into generating and main-

33

taining the confidentiality of its nonpublic
predecisional information – resources that
are devalued when the information is
leaked to members of the public. See Carpenter, 484 U.S. at 26, 108 S.Ct. 316; see
also, e.g., Middendorf, 2018 WL 3443117,
at *9 (concluding that a statutory nonprofit’s confidential inspection lists were
‘‘certainly something of value to the [nonprofit], which invested time and resources
into their creation’’ (internal quotation
marks omitted)). Relatedly, the selective
leaking of confidential CMS information
risks hampering the agency’s decisionmaking process. Although this risk obviously implicates CMS’s regulatory interests, it also implicates CMS’s economic
interest in making efficient use of its limited time and resources. As former CMS
Director Dr. Jonathan Blum testified,
leaks of confidential information could result in unbalanced lobbying efforts, which
would in turn impede the agency’s efficient
functioning by making it ‘‘more difficult to
manage the process flow and to convince
[Blum’s] superiors of the right course for
the Medicare program.’’ App’x at 467.
Leaks may also require the agency to
‘‘tighten up’’ its internal information-sharing processes, again with the result that
the agency would become less efficient. Id.
at 766; see also EPA v. Mink, 410 U.S. 73,
87, 93 S.Ct. 827, 35 L.Ed.2d 119 (1973)
(explaining that Congress enacted the ‘‘deliberative process’’ exemption to the Freedom of Information Act’s disclosure requirements, 5 U.S.C. § 552(b)(5), because
the ‘‘efficiency of [g]overnment would be
greatly hampered if, with respect to legal
and policy matters, all [g]overnment agencies were prematurely forced to ‘operate in
a fishbowl.’ ’’ (quoting S. Rep. No. 89-813,
at 9 (1965))), superseded by statute on
other grounds as stated in CIA v. Sims,
471 U.S. 159, 190 n.5, 105 S.Ct. 1881, 85
L.Ed.2d 173 (1985).

Pet. App. 15

34

947 FEDERAL REPORTER, 3d SERIES

Despite CMS’s proprietary right to exclude and well-recognized economic interests, Defendants argue that the confidential CMS information at issue in this case
was not ‘‘property’’ because there was no
evidence at trial to establish that CMS
suffered an actual monetary loss. In support of this argument, Defendants mainly
rely on a single sentence in this Court’s
decision in Fountain: ‘‘[Cleveland] indicates that, in the context of government
regulation, monetary loss presents a critical, perhaps threshold consideration.’’ 357
F.3d at 257. For two reasons, this sentence
cannot bear the weight Defendants place
on it.
[8, 9] First, Fountain, like Cleveland,
was not a case about confidential government information – it simply held that
taxes owed to a government may constitute ‘‘property’’ in its hands – and thus we
do not believe that Fountain’s reference to
‘‘the context of government regulation’’
contemplated the circumstances presented
here. Second, and more fundamentally,
while monetary loss may generally be a
useful tool for distinguishing the government’s property interests from its ‘‘purely
regulatory’’ interests, Cleveland did not,
we emphasize, establish any ‘‘rigid criteria
for defining property.’’ Id. at 256. Nor do
we see any reason to impose a rigid ‘‘monetary loss’’ criterion here. Such a requirement would be at odds with Carpenter,
which squarely rejected the argument
‘‘that a scheme to defraud requires a monetary loss,’’ and instead found it ‘‘sufficient
that the Journal ha[d] been deprived of its
right to exclusive use of the information’’
because ‘‘exclusivity is an important aspect
of confidential business information and
most private property for that matter.’’
484 U.S. at 26–27, 108 S.Ct. 316. Although
CMS is not a private entity, Carpenter’s
reasoning applies with equal force, since
exclusivity is no less important in the con-

text of confidential government information. See, e.g., Girard, 601 F.2d at 71; see
also Pasquantino, 544 U.S. at 356, 125
S.Ct. 1766 (‘‘The fact that the victim of the
fraud happens to be the government, rather than a private party, does not lessen the
injury.’’); Middendorf, 2018 WL 3443117,
at *8 (explaining that the ‘‘reasoning of
Carpenter supports the conclusion that
confidential information – whether held by
the government [or] a private entity TTT –
is ‘property’ ’’). It is abundantly clear that
government agencies have strong interests – both regulatory and economic – in
controlling whether, when, and how to disclose confidential information relating to
their contemplated rules. See Mink, 410
U.S. at 87, 93 S.Ct. 827 (recognizing the
important ‘‘public policy TTT of open, frank
discussion between subordinate and chief
concerning administrative action’’ (internal
quotation marks omitted)); supra pp. 33–
34. Although fraudulent interference with
these interests may at times result in monetary loss to the fraud victim, nothing in
the Title 18 fraud statutes requires that to
be so.
[10] In sum, the government’s theory
of property rights over a regulatory agency’s confidential predecisional information
does not ‘‘stray from traditional concepts
of property,’’ Cleveland, 531 U.S. at 24, 121
S.Ct. 365, but rather is entirely consistent
with them. We therefore hold that, in general, confidential government information
may constitute government ‘‘property’’ for
purposes of 18 U.S.C. §§ 1343 and 1348,
and that here, there was sufficient evidence to establish that the CMS information at issue was ‘‘property’’ in the hands
of CMS.
B. Whether Dirks v. SEC applies to
18 U.S.C. §§ 1343 and 1348
[11–13] Under Dirks, an insider may
not be convicted of Title 15 securities

Pet. App. 16

U.S. v. BLASZCZAK
Cite as 947 F.3d 19 (2nd Cir. 2019)

fraud unless the government proves that
he breached a duty of trust and confidence
by disclosing material, nonpublic information in exchange for a ‘‘personal benefit.’’
463 U.S. at 663, 103 S.Ct. 3255. Similarly, a
tippee may not be convicted of such fraud
unless he utilized the inside information
knowing that it had been obtained in
breach of the insider’s duty. See United
States v. Newman, 773 F.3d 438, 447–49
(2d Cir. 2014), abrogated on other grounds
by Salman v. United States, ––– U.S. ––––,
137 S. Ct. 420, 196 L.Ed.2d 351 (2016).
Here, Defendants claim that the district
court erred by not instructing the jury
that Dirks’s personal-benefit test also applied to the wire fraud and Title 18 securities fraud counts. In essence, Defendants
argue that the term ‘‘defraud’’ should be
construed to have the same meaning
across the Title 18 fraud provisions and
Rule 10b-5, so that the elements of insidertrading fraud are the same under each of
these provisions. We disagree.
[14–16] We begin by noting what the
Title 18 fraud statutes and Title 15 fraud
provisions have in common: their text does
not mention a ‘‘personal benefit’’ test.
Rather, these provisions prohibit, with certain variations, schemes to ‘‘defraud.’’ 18
U.S.C. §§ 1343, 1348(1); 17 C.F.R.
§ 240.10b-5(a); see 18 U.S.C. § 1348(2)
(prohibiting schemes to obtain certain
property ‘‘by means of false or fraudulent
pretenses’’); 15 U.S.C. § 78j(b) (prohibiting
the use of any ‘‘manipulative or deceptive
device’’). For each of these provisions, the
term ‘‘defraud’’ encompasses the so-called
‘‘embezzlement’’ or ‘‘misappropriation’’
theory of fraud. See United States v.
O’Hagan, 521 U.S. 642, 653–54, 117 S.Ct.
2199, 138 L.Ed.2d 724 (1997) (Title 15 securities fraud); Carpenter, 484 U.S. at 27,
108 S.Ct. 316 (mail and wire fraud); see
also, e.g., United States v. Mahaffy, 693
F.3d 113, 123 (2d Cir. 2012) (Title 18 secu-

35

rities fraud). According to this theory,
‘‘[t]he concept of ‘fraud’ includes the act of
embezzlement, which is ‘the fraudulent appropriation to one’s own use of the money
or goods entrusted to one’s care by another.’ ’’ Carpenter, 484 U.S. at 27, 108 S.Ct.
316 (quoting Grin v. Shine, 187 U.S. 181,
189, 23 S.Ct. 98, 47 L.Ed. 130 (1902)). The
undisclosed misappropriation of confidential information, in breach of a fiduciary or
similar duty of trust and confidence, ‘‘constitutes fraud akin to embezzlement.’’
O’Hagan, 521 U.S. at 654, 117 S.Ct. 2199;
see also United States v. Chestman, 947
F.2d 551, 566–67, 571 (2d Cir. 1991) (en
banc).
[17] While the Title 18 fraud statutes
and Title 15 fraud provisions thus share
similar text and proscribe similar theories
of fraud, these common features have little
to do with the personal-benefit test. Rather, the personal-benefit test is a judgemade doctrine premised on the Exchange
Act’s statutory purpose. As Dirks explained, in order to protect the free flow of
information into the securities markets,
Congress enacted the Title 15 fraud provisions with the limited ‘‘purpose of TTT
eliminat[ing] [the] use of inside information for personal advantage.’’ 463 U.S. at
662, 103 S.Ct. 3255 (emphasis added) (internal quotation marks omitted). Dirks effectuated this purpose by holding that an
insider could not breach his fiduciary
duties by tipping confidential information
unless he did so in exchange for a personal
benefit. Id. at 662–64, 103 S.Ct. 3255; see
also Chestman, 947 F.2d at 581 (Winter,
J., concurring in part and dissenting in
part) (observing that whereas the theory
of fraud recognized in Carpenter ‘‘is derived from the law of theft or embezzlement,’’ the ‘‘Dirks rule is derived from
securities law, and TTT [is] influenced by
the need to allow persons to profit from
generating information about firms so that

Pet. App. 17

36

947 FEDERAL REPORTER, 3d SERIES

the pricing of securities is efficient’’); United States v. Pinto-Thomaz, 352 F. Supp.
3d 287, 298 (S.D.N.Y. 2018) (Rakoff, J.)
(‘‘Although [the Dirks personal-benefit
test] was novel law, the Court reasoned
that this test was consistent with the ‘purpose of the [Title 15] securities laws TTT to
eliminate use of inside information for personal advantage.’ ’’ (quoting Dirks, 463
U.S. at 662, 103 S.Ct. 3255)).
[18, 19] But once untethered from the
statutory context in which it arose, the
personal-benefit test finds no support in
the embezzlement theory of fraud recognized in Carpenter. In the context of embezzlement, there is no additional requirement that an insider breach a duty to the
owner of the property, since ‘‘it is impossible for a person to embezzle the money of
another without committing a fraud upon
him.’’ Grin, 187 U.S. at 189, 23 S.Ct. 98.
Because a breach of duty is thus inherent
in Carpenter’s formulation of embezzlement, there is likewise no additional requirement that the government prove a
breach of duty in a specific manner, let
alone through evidence that an insider
tipped confidential information in exchange
for a personal benefit. See O’Hagan, 521
U.S. at 682 n.1, 117 S.Ct. 2199 (Thomas, J.,
concurring in the judgment in part and
dissenting in part) (‘‘Of course, the ‘use’ to
which one puts misappropriated property
need not be one designed to bring profit to
the misappropriator: Any ‘fraudulent appropriation to one’s own use’ constitutes
embezzlement, regardless of what the embezzler chooses to do with the money.’’);
see also United States v. Bryan, 58 F.3d
933, 953 (4th Cir. 1995) (‘‘Those who trade
on purloined information but who do not
come within the TTT definition of ‘insider’
[set forth in Chiarella v. United States,
445 U.S. 222, 100 S.Ct. 1108, 63 L.Ed.2d
348 (1980), and Dirks] are still almost certain to be subject to criminal liability for

federal mail or wire fraud.’’), abrogated on
other grounds by O’Hagan, 521 U.S. 642,
117 S.Ct. 2199. In short, because the personal-benefit test is not grounded in the
embezzlement theory of fraud, but rather
depends entirely on the purpose of the
Exchange Act, we decline to extend Dirks
beyond the context of that statute.
[20] Our conclusion is the same for
both the wire fraud and Title 18 securities
fraud statutes. While it is true that Section 1348 of Title 18, unlike the wire
fraud statute, concerns the general subject matter of securities law, Section 1348
and the Exchange Act do not share the
same statutory purpose. See United
States v. Mills, 850 F.3d 693, 699 (4th
Cir. 2017) (‘‘The doctrine of in pari materia is inapplicable when statutes have different purposes.’’). Indeed, Section 1348
was added to the criminal code by the
Sarbanes-Oxley Act of 2002 in large part
to overcome the ‘‘technical legal requirements’’ of the Title 15 fraud provisions. S.
Rep. No. 107-146, at 6; see United States
v. Hoskins, 902 F.3d 69, 81 n.5 (2d Cir.
2018) (‘‘As a general matter, we may consider reliable legislative history where, as
here, the statute is susceptible to divergent understandings and, equally important, where there exists authoritative legislative history that assists in discerning
what Congress actually meant.’’ (internal
quotation marks omitted)). In particular,
Congress intended for Section 1348 to
‘‘supplement the patchwork of existing
technical securities law violations with a
more general and less technical provision,
with elements and intent requirements
comparable to current bank fraud and
health care fraud statutes.’’ S. Rep. No.
107-146, at 14. Given that Section 1348
was intended to provide prosecutors with
a different – and broader – enforcement
mechanism to address securities fraud
than what had been previously provided

Pet. App. 18

37

U.S. v. BLASZCZAK
Cite as 947 F.3d 19 (2nd Cir. 2019)

in the Title 15 fraud provisions, we decline to graft the Dirks personal-benefit
test onto the elements of Title 18 securities fraud.
Finally, Defendants argue that we
should extend Dirks beyond the Title 15
fraud provisions because otherwise the
government may avoid the personal-benefit test altogether by prosecuting insidertrading fraud with less difficulty under the
Title 18 fraud statutes – particularly the
Title 18 securities fraud statute, which (unlike the wire fraud statute) does not require proof that wires were used to carry
out the fraud. But whatever the force of
this argument as a policy matter, we may
not rest our interpretation of the Title 18
fraud provisions ‘‘on such enforcement policy considerations.’’ O’Hagan, 521 U.S. at
678 n.25, 117 S.Ct. 2199. ‘‘The Federal
Criminal Code is replete with provisions
that criminalize overlapping conduct,’’ and
so ‘‘[t]he mere fact that two federal criminal statutes criminalize similar conduct
says little about the scope of either.’’ Pasquantino, 544 U.S. at 358 n.4, 125 S.Ct.
1766. Congress was certainly authorized to
enact a broader securities fraud provision,
and it is not the place of courts to check
that decision on policy grounds.
Accordingly, we hold that the personalbenefit test does not apply to the wire
fraud and Title 18 securities fraud statutes, and thus the district court did not err
by refusing to instruct the jury on the
personal-benefit test for those offenses.
C. Conversion of U.S. Property
[21] The federal conversion statute
proscribes ‘‘knowingly convert[ing] to
2.

Because there is no dispute here, we assume without deciding that the conversion
statute requires a ‘‘serious interference’’ with
property. It is worth noting that although this
court has yet to decide this issue, all of our
sister Circuits to address the question have

[one’s] use or the use of another TTT any
TTT thing of value of the United States,’’ or
‘‘receiv[ing] TTT the same with intent to
convert it to [one’s] use or gain, knowing it
to have been TTT converted.’’ 18 U.S.C.
§ 641. Defendants challenge their convictions under this statute on five grounds.
All defendants argue that (1) the evidence
was insufficient to establish that they ‘‘seriously interfered’’ with CMS’s ownership of
its confidential information, as required to
prove conversion, and (2) information is
not a ‘‘thing of value’’ for purposes of
Section 641. Olan, Huber, and Blaszczak
further argue that (3) the conversion statute is unconstitutionally vague as applied
to them, and (4) the evidence was insufficient to establish scienter. Finally, Olan
and Huber contend that (5) the district
court erred in giving a conscious avoidance
jury instruction. We address each of these
arguments in turn.
1. ‘‘Serious Interference’’
[22] Defendants first argue that there
was insufficient evidence at trial to prove
conversion of U.S. property because the
government presented no evidence that
Defendants interfered, let alone ‘‘seriously
interfered,’’ with CMS’s ability to use its
confidential information in the rulemaking
process. Although the government agrees
that ‘‘serious interference’’ is required, it
responds that ‘‘the interference is complete
when the [confidential] information is disclosed, and the interference is serious
when the government has demonstrated a
strong interest in maintaining confidentiality of that species of information.’’2 Appellee’s Br. at 109.
held, consistent with the common-law definition of conversion, that a ‘‘serious interference’’ is required. See United States v. Collins,
56 F.3d 1416, 1420 (D.C. Cir. 1995) (‘‘The
cornerstone of conversion is the unauthorized
exercise of control over property in such a

Pet. App. 19

38

947 FEDERAL REPORTER, 3d SERIES

[23] We disagree with Defendants’
view of how the ‘‘serious interference’’
standard applies when, as here, the property at issue is confidential information. By
focusing on the fact that their misappropriation of confidential CMS information did
not ultimately affect the rules that CMS
subsequently announced, Defendants disregard the Supreme Court’s teaching in
Morissette v. United States that conversion under Section 641 extends broadly to
the ‘‘misuse or abuse of [government]
property.’’ 342 U.S. 246, 272, 72 S.Ct. 240,
96 L.Ed. 288 (1952). Moreover, Defendants’ argument overlooks the fact that
the unauthorized disclosure of CMS’s confidential nonpublic information by definition interferes with the agency’s right to
exclude the public from accessing such information. See Carpenter, 484 U.S. at 26,
108 S.Ct. 316 (rejecting the defendants’
argument that they ‘‘did not interfere with
the Journal’s use of the [pre-publication]
information’’ as ‘‘miss[ing] the point,’’ because it sufficed that the defendants interfered with the Journal’s ‘‘right to decide
how to use [the information] prior to disclosing it to the public’’). Thus, we agree
with the government that the relevant ‘‘interference’’ with CMS’s ownership of confidential information was complete upon the
unauthorized disclosure.

consistent with the Restatement, which
sets forth a multi-factor test for determining the ‘‘seriousness of the interference’’
that lists ‘‘the harm done to the [property]’’ and ‘‘the inconvenience and expense
caused to the [property owner]’’ as only
two of six non-exhaustive factors, none of
which ‘‘is always predominant.’’ Restatement (Second) of Torts § 222A(2) & cmt. d
(1965) (hereinafter ‘‘Restatement’’); see
also United States v. Collins, 56 F.3d 1416,
1420 (D.C. Cir. 1995) (citing the Restatement to interpret Section 641); United
States v. May, 625 F.2d 186, 192 (8th Cir.
1980) (same). Moreover, Defendants’ view
is also in stark tension with our holding in
Girard, where we upheld the defendants’
convictions under Section 641 for engaging
in a scheme to sell confidential DEA information that identified the agency’s informants, even though the scheme was unsuccessful and there was no suggestion that
the informants were in fact compromised.
601 F.2d at 70, 73; see also Morissette, 342
U.S. at 272, 72 S.Ct. 240 (explaining that
‘‘merely TTT commingling’’ money may
constitute conversion where the custodian
is ‘‘under a duty to keep it separate and
intact’’).

[24] As for the ‘‘seriousness’’ of the
interference, we also reject Defendants’
contention that their misappropriation of
confidential CMS information exceeded the
reach of the conversion statute simply because CMS was able to keep using the
information. Defendants’ argument is in-

[25] Thus, while the jury in this case
was free to consider the fact that CMS was
able to use the misappropriated information and did not suffer any monetary loss,
it was also free to consider other factors,
including (1) the strength of the government’s interest in maintaining confidentiality, (2) the risk of harm to the government’s interests posed by the unauthorized
disclosure, and (3) the extent of the unau-

manner that serious interference with ownership rights occurs.’’); United States v. Scott,
789 F.2d 795, 798 (9th Cir. 1986) (similar);
United States v. May, 625 F.2d 186, 192 (8th
Cir. 1980) (similar); see also Restatement
(Second) of Torts § 222A (1965). Although
arguably a lesser quantum of interference
might be required under the federal conver-

sion statute, which was intended to broaden
the scope of the common-law crime, see Collins, 56 F.3d at 1419, certainly evidence sufficient to establish ‘‘serious interference’’ under
the common law would, at a minimum, also
be sufficient to establish the requisite interference required for conversion under Section
641.

Pet. App. 20

39

U.S. v. BLASZCZAK
Cite as 947 F.3d 19 (2nd Cir. 2019)

thorized disclosure. See Restatement
§ 222A(2); see also, e.g., Girard, 601 F.2d
at 70, 73.
Applying this standard here, we conclude that there was sufficient evidence to
support the jury’s finding of serious interference with CMS’s ownership of its confidential information. Dr. Blum testified that
‘‘[i]t’s a very strong precedent and a very
strong principle that every stakeholder has
the right to receive the materials [concerning a rule] at the same time,’’ because the
‘‘rule-making process is based upon the
notion that the entire public that can be
affected TTT ha[s] the right to comment’’ in
a manner that is fair to all stakeholders.
App’x at 467. The leaking of predecisional
information, Dr. Blum explained, could
thus tilt the playing field against interest
groups (and the public) who were not yet
privy to the information, and also prematurely ‘‘trigger powerful [lobbying] forces
to try and stop decisions.’’ Id. CMS employee Amy Bassano echoed these views in
her testimony, while adding that CMS employees were more ‘‘wary of what [stakeholders were] going to be sharing’’ with
the agency after predecisional information
had leaked. Id. at 767. This increased wariness, combined with the agency’s tightening up of internal information-sharing protocols, ‘‘sometimes result[ed] in suboptimal
[policy] outcomes.’’ Id. Furthermore, all of
these adverse effects harmed CMS economically by making the agency function
less efficiently. See supra pp. 33–34.
As for other relevant factors, the jury
could reasonably infer that the disclosure
of confidential information to a Washington D.C. consultant like Blaszczak – and
ultimately to Blaszczak’s clients – seriously
risked harming the government’s interests
by threatening wider disclosure of the information to interested stakeholders. Indeed, the government presented evidence
that Blaszczak tipped confidential informa-

tion not only to hedge fund partners, who
sought to use the information for trading
purposes, but also to employees of healthcare companies such as Amgen, a regulated entity that stood to benefit from the
very informational asymmetry that the
government’s confidentiality rules for predecisional information were designed to
prevent. Taken together, this evidence was
sufficient to support a finding that Defendants’ misappropriation of CMS’s confidential nonpublic information ‘‘seriously interfered’’ with CMS’s ownership rights for
purposes of the conversion statute.
2. ‘‘Thing of Value’’
[26, 27] Defendants next argue that
confidential information is not a ‘‘thing of
value’’ within the meaning of the conversion statute. 18 U.S.C. § 641 (emphasis
added). But as this Court explained in
Girard, ‘‘[t]he word ‘thing’ notwithstanding, the phrase is generally construed to
cover intangibles as well as tangibles.’’ 601
F.2d at 71 (collecting cases). Thus, ‘‘[a]lthough the content of a writing is an intangible, it is nonetheless a thing a value.’’ Id.
Contrary to Defendants’ strained reading
of the case, we read Girard to hold that
confidential information can itself be a
‘‘thing of value’’ under Section 641. Id.; see
also United States v. Matzkin, 14 F.3d
1014, 1021 (4th Cir. 1994) (holding that
confidential information was a ‘‘thing of
value’’); United States v. Barger, 931 F.2d
359, 368 (6th Cir. 1991) (citing, inter alia,
Girard for the proposition that ‘‘information itself is enough to meet the property
or ‘thing of value’ element of the statute.’’).
Thus, whatever the merit of Defendants’
textual argument, we are not at liberty to
reconsider Girard here. See, e.g., Deem v.
DiMella-Deem, 941 F.3d 618, 623 (2d Cir.
2019) (‘‘[A] published panel decision is
binding on future panels unless and until it
is overruled by the Court en banc or by

Pet. App. 21

40

947 FEDERAL REPORTER, 3d SERIES

the Supreme Court.’’ (internal quotation
marks omitted)).
3. Vagueness
[28, 29] Olan, Huber, and Blaszczak
further argue that Section 641 is unconstitutionally vague as applied to them because there was no rule or regulation making clear that Worrall’s disclosure of
CMS’s confidential information was ‘‘without authority.’’3 This argument too lacks
merit.
[30, 31] ‘‘Where, as here, we are not
dealing with defendants’ exercise of a first
amendment freedom, we should not search
for statutory vagueness that did not exist
for the defendants themselves.’’ Girard,
601 F.2d at 71; see also United States v.
Mazurie, 419 U.S. 544, 550, 95 S.Ct. 710,
42 L.Ed.2d 706 (1975) (‘‘[V]agueness challenges to statutes which do not involve
First Amendment freedoms must be examined in the light of the facts of the case
at hand.’’). In Girard, we held that ‘‘statutory vagueness TTT did not exist for the
defendants themselves’’ because the defendants ‘‘must have known’’ that the disclosure of the identity of DEA informants
was unauthorized. 601 F.2d at 71. Although we noted that the ‘‘DEA’s own
rules and regulations forbidding such disclosure’’ were relevant to the inquiry, id.,
we did not, contrary to Defendants’ suggestion, require the existence of a published rule or regulation on point. See United
States v. McAusland, 979 F.2d 970, 975
(4th Cir. 1992) (‘‘We do not read [Girard]
as requiring the disclosure to be specifically proscribed by published regulations.’’).
Nor will we impose such a sweeping extra3.

The phrase ‘‘without authority’’ in Section
641 modifies only the words that follow it,
‘‘sells, conveys, or disposes,’’ not the words
preceding it, ‘‘embezzles, steals, purloins, or
knowingly converts.’’ 18 U.S.C. § 641. Nevertheless, in this context, the ‘‘without authority’’ requirement is implied by the definition of

textual requirement here. Rather, we
agree with the Fourth Circuit that ‘‘the
existence of a published regulation proscribing disclosure’’ is not ‘‘the exclusive
method of preventing vagueness.’’ Id.; see
also, e.g., id. at 975–76 (rejecting defendants’ as-applied vagueness challenge in
light of ‘‘legends restricting disclosure’’ on
the converted documents, ‘‘[d]efendants’
behavior,’’ and witnesses’ testimony at trial that defendants ‘‘would have known that
the information was not to be disclosed’’);
United States v. Jones, 677 F. Supp. 238,
241 (S.D.N.Y. 1988) (‘‘Given the government’s long[-]standing practice of maintaining the confidentiality of information
relevant to on-going criminal investigations, and given the government’s obvious
interest in maintaining such confidentiality, the defendant could reasonably know
the proscribed nature of his alleged actions.’’).
Here, as in Girard, there was ample
evidence at trial to establish that Defendants ‘‘must have known’’ that the disclosure of the predecisional CMS information
at issue was prohibited. Although Worrall
does not raise a vagueness challenge himself, it bears noting that CMS employees
were subject to 5 C.F.R. § 2635.703(a) (the
text of which was introduced into evidence
at trial), which forbids the ‘‘improper use
of nonpublic information to further [the
employee’s] own private interest or that of
another TTT by knowing unauthorized disclosure.’’ The regulation further provides
that ‘‘nonpublic information is information
that the employee gains by reason of Federal employment and that he knows or
conversion. See Restatement § 228 (‘‘One who
is authorized to make a particular use of a
chattel, and uses it in a manner exceeding the
authorization, is subject to liability for conversion to another whose right to control the use
of the chattel is thereby seriously violated.’’).

Pet. App. 22

41

U.S. v. BLASZCZAK
Cite as 947 F.3d 19 (2nd Cir. 2019)

reasonably should know has not been
made available to the general public.’’ Id.
§ 2635.703(b). In addition, CMS employees
received extensive training on the rules
prohibiting disclosure of nonpublic predecisional information.

to establish that Olan, Huber, and Blaszczak knew that the CMS information at
issue was disclosed ‘‘without authority.’’
Accordingly, their as-applied vagueness
challenge fails.

As a former employee, Blaszczak was
previously subject to these same rules and
presumably had also received training on
the confidential nature of predecisional information. At trial, moreover, the government’s witnesses consistently testified to
the fact that Blaszczak, Olan, and Huber –
and consultants and securities traders in
the healthcare space more generally –
knew that predecisional CMS information
was nonpublic and confidential. Indeed,
Fogel testified that the Deerfield defendants valued predecisional CMS information precisely because it was not available
to other traders. Plaford testified similarly
as to his own motivations.

4. Scienter

That testimony was corroborated by evidence of Defendants’ own communications
and behavior. In one episode in 2012, for
example, Olan, Huber, Fogel, and Blaszczak attempted to extract predecisional
CMS information from CMS consultant
Dr. Niles Rosen, prompting an email discussion of the fact that Rosen was unlikely
to disclose such information. Olan commented that he thought the odds of Blaszczak ‘‘getting shut down by [R]osen [were]
103%,’’ but nevertheless Blaszczak and the
Deerfield partners pushed ahead in the
hopes that Blaszczak might get Rosen to
‘‘bite[ ],’’ since he was ‘‘the man with the
keys to [the radiation-oncology device]
companies’ coffins.’’ App’x at 1982, 2428.
Ultimately, Rosen rebuffed Blaszczak’s efforts, writing in an email, ‘‘As you clearly
understand, I cannot share with you our
recommendations to CMS.’’ Id. at 2431.
Thus, construing the evidence in the
light most favorable to the prosecution, we
conclude that there was sufficient evidence

[32] Olan and Huber next argue that
there was insufficient evidence at trial to
establish that they received confidential
CMS information ‘‘knowing it to have been
TTT converted,’’ as required by 18 U.S.C.
§ 641. Blaszczak similarly argues that the
evidence was insufficient to prove his ‘‘intent to convert [such information] to his
use or gain.’’ Id. Again, we disagree, and
find that the evidence at trial was sufficient to establish Olan’s and Huber’s
knowledge that they received converted
property.
Specifically, we reject, for the reasons
just mentioned, Olan’s argument (joined by
Huber) that the evidence was insufficient
to prove his knowledge of unauthorized
disclosure. We also reject Olan’s claim that
the evidence was insufficient to prove his
knowledge of ‘‘serious interference’’ with
CMS’s ownership of its confidential information. Despite Olan’s bald assertion that
‘‘[t]here was no way for [him] TTT to know
that disclosure of the information’’ could
affect CMS’s rulemaking process given
that he had ‘‘never worked for CMS,’’ Olan
Br. at 45, fellow Deerfield partner Fogel –
who had also never worked for CMS –
testified that he understood that disclosure
of CMS’s confidential information ‘‘had the
potential to disrupt CMS’s process,’’ App’x
at 564. Indeed, Fogel specifically acknowledged that if CMS’s confidential ‘‘information was out there, it would give industry
lobbyists and others a chance to TTT stop a
proposed cut or increase from happening.’’
Id. Most notably, Fogel testified that he
‘‘discuss[ed] th[e] impact on the CMS process’’ with Huber and Olan. Id. This de-

Pet. App. 23

42

947 FEDERAL REPORTER, 3d SERIES

tailed testimony alone was enough to establish Huber’s and Olan’s knowledge of
serious interference. See United States v.
Hamilton, 334 F.3d 170, 179 (2d Cir. 2003)
(‘‘The testimony of a single accomplice is
sufficient to sustain a conviction so long as
that testimony is not incredible on its face
and is capable of establishing guilt beyond
a reasonable doubt.’’ (internal quotation
marks omitted)).
[33] As to Blaszczak’s sufficiency challenge, there was ample evidence to support
a finding that Blaszczak intended to convert the confidential CMS information that
he received from CMS insiders to his use
or gain. Although Blaszczak argues that
there was insufficient evidence to establish
that he specifically ‘‘intend[ed] [for] his
predictions and analyses TTT to interfere
TTT with CMS’s work,’’ Blaszczak Br. at
57, the requisite intent was established by
evidence that Blaszczak, himself a former
CMS employee, obviously knew that the
disclosure of the predecisional CMS information he received was unauthorized and
could spawn interference with CMS’s processes, but he nevertheless intentionally
proceeded to appropriate such information
to his own use by disclosing it to his hedge
fund clients. See Morissette, 342 U.S. at
270–72, 72 S.Ct. 240.
5. Conscious Avoidance Instruction
[34, 35] Last, we reject Olan’s and Huber’s claim that the district court erred in
giving a ‘‘conscious avoidance’’ instruction.
As relevant here, a conscious avoidance
instruction may only be given if ‘‘the appropriate factual predicate for the charge
exists, i.e. the evidence is such that a
rational juror may reach the conclusion
beyond a reasonable doubt that the defendant was aware of a high probability of the
fact in dispute and consciously avoided
confirming that fact.’’ United States v. Goffer, 721 F.3d 113, 126–27 (2d Cir. 2013)

(internal quotation marks omitted). This
standard is easily satisfied here. To repeat,
the evidence at trial established that Olan
and Huber sought out Blaszczak’s services
precisely so they could trade on information that other analysts and consultants
did not possess. And as Fogel testified,
when Blaszczak gave the Deerfield partners the nonpublic information they
sought, he either told them ‘‘explicitly’’
that it came from CMS insiders, or that
fact was ‘‘implied or obvious’’ given the
context in which the information was conveyed. App’x at 555. In addition, Fogel
testified that he, Olan, and Huber specifically discussed the fact that disclosure of
CMS’s confidential predecisional information could harm the agency’s regulatory
process. In these circumstances, a rational
juror could find that, even if Olan and
Huber did not have actual knowledge that
Blaszczak’s predictions were based on confidential CMS information that had been
converted, Olan and Huber were at least
aware of a high probability of that fact and
yet consciously avoided confirming it.
D. Other Sufficiency Arguments
Blaszczak, joined by Olan and Huber,
next argues that at most the evidence established that he passed along information
that was already public, or that was disclosed by CMS insiders who had the authority to disclose it. This argument is
meritless. The fact that Blaszczak had access to legitimate sources of information
that could have supported his predictions
hardly compels the conclusion that he in
fact relied on those sources, rather than on
CMS insiders who disclosed confidential
information without authority, as Fogel
and Plaford testified. And while Blaszczak
makes much of the fact that his predictions
were not always accurate, his lack of perfection does not compel an inference that
his sources were legitimate and public. As

Pet. App. 24

43

U.S. v. BLASZCZAK
Cite as 947 F.3d 19 (2nd Cir. 2019)

the evidence reflected, there were various
reasons why CMS might adjust its position
between the time that confidential predecisional information leaked and the time that
a rule was publicly announced. Moreover,
despite Blaszczak’s imperfect record, his
predictions were still more accurate (and
valuable) than those of other market consultants. Put simply, Blaszczak invites us
to choose ‘‘between competing inferences,’’
but this is a fact-finding function that lies
‘‘solely within the province of the jury.’’
United States v. Payne, 591 F.3d 46, 60
(2d Cir. 2010).
[36] For similar reasons, we reject
Worrall’s argument that the evidence was
insufficient to establish that he was the
source of leaked CMS information in 2012.
Contrary to Worrall’s suggestion, the government was not required to prove the
precise way in which he became aware of
predecisional information concerning the
proposed radiation oncology rule. Rather,
the government was entitled to prove Worrall’s knowledge of the information
through circumstantial evidence, including
evidence that Worrall had access to the
information because he worked closely
with Blum and his job responsibilities exposed him to various matters within the
agency. As to whether Worrall disclosed
this information to Blaszczak, the government introduced into evidence a May 8,
2012 CMS sign-in sheet establishing that
Blaszczak met Worrall the day before relaying confidential information concerning
the proposed radiation oncology rule to
Fogel. This evidence was buttressed by
testimony from Marc Samuels, Blaszczak’s
consulting partner between 2008 and 2012,
4.

Because each of the conspiracy convictions
was predicated on substantive counts for
which there was sufficient evidence, we need
not reach the issue of whether there was also
sufficient evidence to support so-called
‘‘Klein’’ conspiracies to defraud the United
States, in violation of 18 U.S.C. § 371, by

who recalled that Blaszczak had specifically named Worrall as a source of confidential CMS information. The government
also presented evidence that Blaszczak and
Worrall remained close in 2013 and 2014;
for example, Blaszczak’s research analyst
during that period, Timothy Epple, testified that Blaszczak ‘‘would reference his
friend Chris most often’’ as his source of
nonpublic CMS information. App’x at 872.
Epple further testified that, after Blaszczak learned he was under investigation by
the SEC, he pointedly asked Worrall
whether investigators had been questioning people at CMS. While Worrall argues
that Blaszczak could nevertheless have obtained information about the 2012 radiation oncology rule from other people at
CMS, the above-referenced evidence was
more than sufficient to support the jury’s
contrary finding on this point.
Thus, having carefully reviewed the record, we conclude that the evidence at trial
was sufficient to support the jury’s verdict
on each count of conviction.4
E. Misjoinder
[37] Olan and Huber next argue that
the district court erred in denying their
motion under Federal Rule of Criminal
Procedure 8(b) to sever Counts Seventeen
and Eighteen, which charged Blaszczak
alone in the Visium scheme, from the remaining counts.
[38–40] Rule 8(b) provides that an indictment ‘‘may charge [two] or more defendants if they are alleged to have participated in the same act or transaction, or in
the same series of acts or transactions,
‘‘obstruct[ing] a lawful function of the Government TTT by deceitful or dishonest means.’’
United States v. Coplan, 703 F.3d 46, 61 (2d
Cir. 2012) (internal quotation marks omitted);
see United States v. Desnoyers, 637 F.3d 105,
109–10 (2d Cir. 2011); United States v. Coriaty, 300 F.3d 244, 250 (2d Cir. 2002).

Pet. App. 25

44

947 FEDERAL REPORTER, 3d SERIES

constituting an offense or offenses.’’ Fed.
R. Crim. P. 8(b). Under this rule, ‘‘joinder
of defendants is proper when the alleged
acts are ‘unified by some substantial identity of facts or participants, or arise out of
a common plan or scheme.’ ’’ United States
v. Feyrer, 333 F.3d 110, 114 (2d Cir. 2003)
(quoting United States v. Attanasio, 870
F.2d 809, 815 (2d Cir. 1989)). In administering this standard, we ‘‘apply a ‘commonsense rule’ to decide whether, in light of
the factual overlap among charges, joint
proceedings would produce sufficient efficiencies such that joinder is proper notwithstanding the possibility of prejudice to
either or both of the defendants resulting
from the joinder.’’ United States v. Rittweger, 524 F.3d 171, 177 (2d Cir. 2008)
(Sotomayor, J.) (quoting Shellef, 507 F.3d
at 96). Even where joinder is erroneous,
we will not reverse unless the ‘‘misjoinder
results in actual prejudice because it had
[a] substantial and injurious effect or influence in determining the jury’s verdict.’’
Shellef, 507 F.3d at 100 (internal quotation
marks omitted).
Here, the district court did not err in
concluding that the Visium-related charges
against Blaszczak were properly joined
with the Deerfield-related charges against
Blaszczak, Olan, Huber, and Worrall. Although these two sets of charges involved
distinct schemes, there was substantial
temporal overlap between the Visium
scheme (2011 to 2013) and Deerfield
scheme (mainly 2012 to 2014); the schemes
involved nearly identical conduct, i.e., misappropriation and insider trading of confidential government information concerning
healthcare rules; and in both schemes,
Blaszczak was the key player and CMS
was the victim. These similarities alone
were sufficient to render Rule 8(b) joinder
both efficient and proper. See Rittweger,
524 F.3d at 177; Feyrer, 333 F.3d at 114;
Attanasio, 870 F.2d at 815.

[41] In any event, even if joinder were
improper, any error would be harmless
because much of the evidence relating to
the Visium scheme would have been admissible against Olan and Huber on
Counts One through Sixteen. See Shellef,
507 F.3d at 101–02. The district court correctly determined that Plaford’s testimony,
which both corroborated Fogel’s testimony
and provided useful background on Blaszczak’s methods and sources during the
same time period as the Deerfield conspiracy, was relevant evidence on the charges
against Olan and Huber. See Fed. R. Evid.
401; see also id. 404(b). While the court
also recognized that the probative value of
Plaford’s testimony ‘‘may [have been]
somewhat attenuated’’ in relation to the
Deerfield scheme, the court permissibly
concluded that such testimony would not
result in any undue prejudice for purposes
of Rule 403(b). App’x at 996; see United
States v. Awadallah, 436 F.3d 125, 134 (2d
Cir. 2006) (‘‘Only rarely – and in extraordinarily compelling circumstances – will we,
from the vista of a cold appellate record,
reverse a district court’s on-the-spot judgment concerning the relative weighing of
probative value and unfair effect.’’ (internal quotation marks omitted)).
F. Evidentiary Issues
[42–45] Blaszczak, again joined by
Olan and Huber, also argues that the district court committed several evidentiary
errors warranting a new trial. Specifically,
Blaszczak contends that the district court
erred by (1) limiting as cumulative the
defense’s cross-examination of CMS employee Mark Hartstein concerning the fact
that CMS’s 2012 proposed radiation oncology rule was based on published recommendations of the American College for
Radiology; (2) precluding cross-examination of Plaford as to a prior inconsistent
statement; (3) admitting into evidence

Pet. App. 26

45

U.S. v. BLASZCZAK
Cite as 947 F.3d 19 (2nd Cir. 2019)

statements made by Amgen employee
Ruth Hoffman under the coconspirator exclusion set forth in Rule 801(d)(2)(E); and
(4) admitting into evidence minutes of a
2007 Deerfield meeting as a business record for the purpose of proving Olan’s and
Huber’s states of mind.
Having considered these arguments in
the context of the record as a whole, we
discern no error warranting a new trial.
The district court acted within its discretion in limiting Hartstein’s testimony as to
the basis for CMS’s proposed radiation
oncology rule, since other evidence had
indeed been introduced on this subject and
Hartstein’s testimony would have been cumulative. Regarding Plaford’s prior inconsistent statement that the market’s prediction for the home healthcare cuts was 2.5%
rather than 3.5% as he recalled at trial, the
district court did not err in concluding that
Plaford’s recollection as to the actual market consensus was a collateral issue. As for
Hoffman’s email statements, the evidence
at trial was sufficient to establish Hoffman’s status as an unindicted coconspirator for purposes of Rule 801(d)(2)(E) based
on her implied agreement with Blaszczak
to misappropriate confidential CMS information. See, e.g., United States v. Downing, 297 F.3d 52, 57–58 (2d Cir. 2002).
Finally, the district court properly admitted the minutes of the 2007 Deerfield
meeting – reflecting that someone at the
meeting had opined that ‘‘Blazacks [sic]
comments pre-news suggest he had a read
of draft documents,’’ App’x at 2039 – as a
business record probative of Olan’s and
Huber’s states of mind during the years of
the charged conspiracy, see Fed. R. Evid.
803(6), and subject to a clear limiting instruction that such evidence could not be
considered against Blaszczak.
We therefore discern no error in the
district court’s evidentiary rulings. Moreover, even assuming that one or more of

these rulings were erroneous, any errors
would fall well short of prejudicial. Over
the course of the month-long trial, the
government presented various forms of evidence establishing that Blaszczak’s predictions were based on confidential nonpublic
CMS information obtained directly from
CMS insiders, and that Olan and Huber
were aware of that fact when they sought
out this information, received it, and directed Deerfield to trade on it.
IV. CONCLUSION
In upholding the jury’s verdict, we pause
to reject Defendants’ thematic claim that
the government’s positions, if accepted,
would herald an unprecedented expansion
of federal criminal law. It is Defendants
who ask us to break new ground by rejecting well-recognized theories of property
rights and by adding, in effect, a ‘‘personal
benefit’’ element to the Title 18 fraud statutes. We decline these requests, holding
instead that (1) a government agency’s
confidential information relating to its contemplated rules may constitute ‘‘property’’
for purposes of the wire fraud and Title 18
securities fraud statutes, and (2) Dirks’s
‘‘personal-benefit’’ framework does not apply to these Title 18 fraud statutes. Our
remaining holdings confirm that Defendants’ misappropriation of CMS’s predecisional information, as proven at trial, fall
comfortably within the Title 18 securities
fraud, wire fraud, conversion, and conspiracy statutes. To the extent that the government’s decision to prosecute any or all
of these crimes in this case raises broader
enforcement policy concerns, that is a matter for Congress and the Executive, not
the Judiciary. Our inquiry is a more limited one, and having now completed it, we
AFFIRM the judgments of the district
court.
KEARSE, Circuit Judge, dissenting:
I respectfully dissent from the majority’s affirmance of the convictions of these

Pet. App. 27

46

947 FEDERAL REPORTER, 3d SERIES

four defendants for substantive crimes of
conversion of government property in violation of 18 U.S.C. § 641 and wire fraud in
violation of 18 U.S.C. § 1343, as well as the
convictions of three of the defendants for
substantive crimes of securities fraud in
violation of 18 U.S.C. § 1348, for conspiracy in violation of 18 U.S.C. § 1349 to
commit Title 18 crimes of wire fraud and
securities fraud, and for conspiracy in violation of 18 U.S.C. § 371 to commit offenses under § 641 and other provisions,
including Title 15 securities fraud in violation of 15 U.S.C. § 78j(b) and SEC Rule
10b-5 promulgated thereunder.
Section 641, one of the sections under
which all four defendants were convicted,
provides that it is unlawful to
embezzle[ ], steal[ ], purloin[ ], or knowingly convert[ ] to his use or the use of
another, or without authority, sell[ ],
convey[ ] or dispose[ ] of any record,
voucher, money, or thing of value of the
United States or of any department or
agency thereof TTTT
18 U.S.C. § 641 (emphases added). Section
1343, under which all four defendants were
also convicted, provides in part that
[w]hoever, having devised or intending to devise any scheme or artifice TTT
for obtaining money or property by
means of false or fraudulent pretenses
TTT transmits or causes to be transmitted by means of wire TTT any writings,
signs, signals TTT for the purpose of
executing such scheme or artifice, shall
be fined under this title or imprisoned
not more than 20 years, or both.
18 U.S.C. § 1343 (emphases added). Section 1348, under which three defendants
were convicted, is similar to § 1343. It
provides in part that
[w]hoever knowingly executes, or attempts to execute, a scheme or artifice-TTTT

(2) to obtain, by means of false or
fraudulent pretenses, representations,
or promises, any money or property in
connection with the purchase or sale
of TTT any security of an issuer with a
class of securities registered under
Section 12 of the Securities Exchange
Act of 1934 TTTT
shall be fined under this title or imprisoned not more than 25 years, or both.
18 U.S.C. § 1348(2) (emphases added).
With respect to the issue dividing us, the
majority treats the relevant elements of
§§ 1343 and 1348 as the same: the property that the defendant is charged with obtaining by false or fraudulent pretenses
must be the property of the defrauded
victim. While this has been held to be so
with respect to the mail fraud statute, 18
U.S.C. § 1341, see, e.g., Cleveland v. United States, 531 U.S. 12, 15, 121 S.Ct. 365,
148 L.Ed.2d 221 (2000) (‘‘the thing obtained must be property in the hands of
the [fraud] victim’’), and §§ 1341 and 1343
‘‘share the same language in relevant part’’
and are subject to the same analysis, Carpenter v. United States, 484 U.S. 19, 25
n.6, 108 S.Ct. 316, 98 L.Ed.2d 275 (1987), it
is not entirely clear to me that this is true
of § 1348. However, for purposes of this
opinion, I accept that both §§ 1343 and
1348 prohibit obtaining property belonging
to the victim of the fraud.
My disagreement with the majority is
focused on the charges of the operative
superseding indictment (‘‘Indictment’’) that
defendants violated §§ 1343 and 1348 by
obtaining something that was government
‘‘property’’ and violated § 641 by ‘‘converting’’ something that was a ‘‘thing of value’’
to the government.
The alleged conduct underlying virtually
all of these charges was that defendants
Blaszczak, Huber, and Olan obtained directly or indirectly from defendant Worrall, an employee of the federal agency

Pet. App. 28

U.S. v. BLASZCZAK
Cite as 947 F.3d 19 (2nd Cir. 2019)

Centers for Medicare & Medicaid Services
(‘‘CMS’’), confidential information as to the
substance and timing of upcoming changes
to CMS rules governing reimbursement
rates for certain medical treatments. CMS
is not a business; it does not sell, or offer
for sale, a service or a product; it is a
regulatory agency. It adopts regulations
that affect, inter alia, business organizations or health industry entities--whether
the affected persons or entities favor the
regulations or not. While CMS seeks to
maintain confidentiality as to its planned
regulations--and the regulations can plainly have either a favorable or an adverse
effect on certain business entities’ fortunes--I do not view a planned CMS regulation as a ‘‘thing of value’’ to CMS, 18
U.S.C. § 641, that is susceptible to conversion. Unlike the information that was
planned for publication by the news publisher victim in Carpenter, information is
not CMS’s ‘‘stock in trade,’’ 484 U.S. at 26,
108 S.Ct. 316 (internal quotation marks
omitted). CMS does not seek buyers or
subscribers; it is not in a competition; it is
an agency of the government that regulates the conduct of others. It does so
whether or not any information on which
its regulation is premised is confidential.
Further, regardless of whether information as to the substance or timing of a
planned regulation remains confidential as
CMS prefers or is disclosed to unauthorized listeners, CMS adopts its preferred
planned regulation and--subject to legal
requirements as to timing, e.g., 42 U.S.C.
§ 1395w-4(b)(1) (requiring that reimbursement rates for a given year be announced
prior to November 1 of the preceding
year)--can do so in accordance with its own
timetable. I cannot see that predecisional
regulatory information is subject to conversion within the contemplation of § 641.
Although the majority views our decision upholding a § 641 conviction in United States v. Girard, 601 F.2d 69, 71 (2d

47

Cir. 1979), as compelling the conclusion
that CMS’s desire for predecisional confidentiality is a thing of value, I disagree.
Girard involved a drug dealer’s attempt
to purchase confidential records of the
United States Drug Enforcement Administration (‘‘DEA’’) as to what persons
were DEA informants. Confidential information as to the identities of informants
and cooperators is clearly ‘‘[some]thing of
value’’ to a government agency whose
mission is law enforcement. That confidential information has inherent value because it enables the agency to, inter alia,
collect evidence upon which the Department of Justice may obtain authorizations
to conduct electronic surveillance, obtain
warrants for arrests, and commence prosecutions. Confidentiality in that context
enhances the value of the information because, inter alia, it reduces the chances
that suspects will alter their observable
behavior, hide their contraband, flee into
hiding, or tamper with--or harm--witnesses before the law enforcement agency
has an opportunity to fully act upon the
information it possesses.
An agency such as CMS whose brief is
to issue regulations is entirely different. It
may either carry out or deviate from its
planned adoption of regulations even if its
plans, and/or the information that affects
those plans, become public knowledge before CMS prefers that such disclosures
occur. There has been no conversion.
For similar reasons, I do not view
CMS’s interest in issuing a regulation, or
in doing so on a particular date, or in
keeping the planned regulation a secret
until its issuance, as constituting government ‘‘property’’ within the meaning of
§§ 1343 and 1348. Given that CMS, notwithstanding any premature disclosure of
its predecisional regulatory information,
can issue a regulation that adheres to its
preliminary inclination or can issue a dif-

Pet. App. 29

48

947 FEDERAL REPORTER, 3d SERIES

ferent regulation, I cannot see that CMS
has been deprived of anything that could
be considered property.
Nor do I see merit in the government’s
contention that predecisional regulatory
information should be considered government property because CMS is ‘‘responsible for allocating $1 trillion in federal
funds every year,’’ and that ‘‘[b]ecause a
large part of’’ CMS’s ‘‘mission’’ to ‘‘develop[ ] and maintain[ ] effective health care
policy TTTT is centered on cost-effective
allocation of health care spending, interference with CMS’s right to exclusive use of
its confidential information necessarily creates the potential for significant economic
consequences’’ (Government brief on appeal at 92). Whatever economic consequences actually occur will be based on
what CMS actually decides as to the substance and the timing of the regulation it
adopts. The Cleveland Court rejected the
government’s argument that a property
right of the State of Louisiana had been
interfered with because the defendant
‘‘frustrated the State’s right to control the
issuance’’ of gaming licenses. 531 U.S. at
23, 121 S.Ct. 365. The Court held that
‘‘these intangible rights of allocation, exclusion, and control amount to no more
and no less than Louisiana’s sovereign
power to regulate.’’ Id.
Like the gaming licenses in question in
Cleveland, which the State had the right to
control or withhold--but which had no
property status or effect until they were
issued (and even when issued were not the
property of the State)--the predecisional
CMS information has no economic impact
on the government until after CMS has
actually decided what regulation to issue
and when the regulation will take effect.
And at the point when the regulation has
economic impact on the government fisc,
its impact will be in accordance with whatever regulation CMS ultimately decided to

adopt. Thus, I cannot agree that a premature disclosure of predecisional regulatory
information has taken any property from
CMS or the government.
As the majority notes, all four defendants were acquitted on all of the counts
charging them with substantive securities
fraud violations of Title 15 and SEC Rule
10b-5 promulgated thereunder. The only
substantive counts on which the jury found
any defendant guilty were those charging
violations of 18 U.S.C. §§ 641, 1343, and
1348. Since, in my view, the predecisional
regulatory information at issue here did
not constitute CMS property within the
meaning of §§ 1343 and 1348, or a thing of
value stolen from CMS in violation of
§ 641, none of defendants’ convictions on
substantive counts should stand.
The Indictment also contained three
conspiracy counts: Counts 1 and 2 against
all four defendants (on both of which Worrall was acquitted), and Count 17 against
Blaszczak alone. Count 2 charged all defendants with violating 18 U.S.C. § 1349,
which prohibits conspiracy ‘‘to commit any
offense under this chapter,’’ to wit, Chapter 63 of Title 18, i.e., 18 U.S.C. §§ 13411351. Count 17 charged Blaszczak with
violating 18 U.S.C. § 371 by conspiring
with a cooperating coconspirator to violate
§ 641. Since in my view the Indictment’s
allegations of substantive violations of
§§ 1343, 1348, and 641 charged defendants
only with conduct that was not prohibited
by those sections, defendants could not
properly be convicted of conspiring to violate them. Thus, I would conclude that the
convictions on Counts 2 and 17 should also
be reversed.
The conspiracy charged in Count 1, however, was not limited to a conspiracy to
violate §§ 641, 1343, and 1348. Count 1
(Indictment ¶¶ 1-76) charged defendants
with agreeing to commit ‘‘conversion of
United States property, in violation of Ti-

Pet. App. 30

49

U.S. v. BELL
Cite as 947 F.3d 49 (3rd Cir. 2020)

tle 18, United States Code, Section 641;
securities fraud, in violation of Title 15,
United States Code, Sections 78j(b) and
78ff, and Title 17, Code of Federal Regulations, Section 240.10b-5; and to defraud the
United States and an agency thereof, to
wit, CMS, in violation of Title 18, United
States Code, Section 371 and Title 5, Code
of
Federal
Regulations,
Section
2635.703(a).’’ (Indictment ¶ 72 (emphases
added)). The latter Code of Federal Regulations provision states in part that ‘‘[a]n
employee shall not TTT allow the improper
use of nonpublic information to further
his own private interest or that of another
TTT by knowing unauthorized disclosure.’’
5 C.F.R. § 2635.703(a) (emphases added).
Count 1 alleged that defendants agreed to,
inter alia, defraud CMS by obtaining from
its employee Worrall confidential information about CMS’s predecisional regulatory
information (see Indictment ¶ 75) and engage in purchases and sales of securities in
violation of 15 U.S.C. § 78j(b) and 78ff (see
id. ¶ 74), and that pursuant to their conspiracy certain overt acts, including short
sales of the shares of specified companies,
were committed, all in violation of 18
U.S.C. § 371 (see id. ¶ 76).

(prosecution for conduct beyond statute-oflimitations period invalid as a matter of
law), partially overruled on other grounds
by Burks v. United States, 437 U.S. 1, 710, 98 S.Ct. 2141, 57 L.Ed.2d 1 (1978); see
generally Griffin v. United States, 502
U.S. 46, 52-56, 112 S.Ct. 466, 116 L.Ed.2d
371 (1991). While the mere insufficiency of
the evidence to support one of the bases
submitted to the jury does not fall within
this principle, see id. at 56, 112 S.Ct. 466, a
basis is invalid as a matter of law when the
conduct in question ‘‘fails to come within
the statutory definition of the crime,’’ id.
at 59, 112 S.Ct. 466.

The defendants other than Worrall were
found guilty on this count. The jury was
not given questions to answer that would
reveal, with respect to Count 1, whether it
found that the three convicted defendants
had conspired to violate the securities
fraud provisions of Title 15 and SEC Rule
10b-5 promulgated under that Title or to
violate a government employee’s duty of
confidentiality, or instead had only conspired to violate § 641. When, as here, the
jury has been presented with several bases
for conviction, one or more of which is
invalid as a matter of law, and it is impossible to tell which ground the jury selected, the conviction should be vacated. See,
e.g., Yates v. United States, 354 U.S. 298,
312, 77 S.Ct. 1064, 1 L.Ed.2d 1356 (1957)

,

As the jury could have found that the
three defendants it convicted under Count
1 agreed to commit crimes prohibited by
Title 15 and the regulations promulgated
under that Title, but may instead have
found only that they agreed to engage in
conduct that was alleged to violate 18
U.S.C. § 641, 1343, or 1348 but that did not
come within the definitions of those sections, the convictions of Blaszczak, Huber,
and Olan on Count 1 should be vacated.
Accordingly, I respectfully dissent.

UNITED STATES of America
v.
Marquise BELL, Appellant
No: 17-3792
United States Court of Appeals,
Third Circuit.
Argued September 25, 2018
(Opinion Filed: January 7, 2020)
Background: Defendant was convicted,
on guilty plea entered in the United States

Pet. App. 31

Case 18-2811, Document 315, 04/10/2020, 2817724, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
10th day of April, two thousand twenty.
________________________________________
United States of America,
Appellee,
v.

ORDER

David Blaszczak, Theodore Huber, Robert Olan,
Christopher Worrall,

Docket Nos: 18-2811 (Lead)
18-2825 (Con)
18-2867 (Con)
18-2878 (Con)

Defendants-Appellants.
_______________________________________

Appellants, Theodore Huber and Robert Olan, filed a petition for panel rehearing, or, in
the alternative, for rehearing en banc. The panel that determined the appeal has considered the
request for panel rehearing, and the active members of the Court have considered the request for
rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

Pet. App. 32

Case 18-2811, Document 317, 04/10/2020, 2817901, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
____________________________________________
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 10th day of April, two thousand twenty,
Before:

Amalya L. Kearse,
Richard J. Sullivan,

Circuit Judges.*
____________________________________
United States of America,
lllllllllllllllllllllAppellee,

ORDER
Docket No. 18-2811(L),
18-2825(CON), 18-2867(CON),
18-2878(CON)

v.
David Blaszczak, Theodore Huber, Robert Olan,
Christopher Worrall,
lllllllllllllllllllllDefendants-Appellants.
_______________________________________
Appellant, David Blaszczak, having filed a petition for panel rehearing and the panel that
determined the appeal having considered the request,
IT IS HEREBY ORDERED that the petition is DENIED.

For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court

*Judge Christopher F. Droney, who was originally part of the panel assigned to hear this case,
retired from the Court effective January 1, 2020.

Pet. App. 33

